<html>
<title> - AN EXAMINATION OF THE REPORT OF THE HOUSE SELECT COMMITTEE ON U.S. NATIONAL SECURITY AND MILITARY/COMMERCIAL CONCERNS WITH THE PEOPLE'S REPUBLIC OF CHINA</title>
<body><pre>[Senate Hearing 106-323]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-323
 
  AN EXAMINATION OF THE REPORT OF THE HOUSE SELECT COMMITTEE ON U.S. 
 NATIONAL SECURITY AND MILITARY/COMMERCIAL CONCERNS WITH THE PEOPLE'S 
                           REPUBLIC OF CHINA

=======================================================================


                                HEARING

                               before the

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 26, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>


                     U.S. GOVERNMENT PRINTING OFFICE
59-590cc                      WASHINGTON : 2000
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            JOHN EDWARDS, North Carolina
                   Mitchel B. Kugler, Staff Director
              Richard J. Kessler, Minority Staff Director
                      Julie A. Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Akaka................................................     2
    Senator Lieberman............................................     3
    Senator Levin................................................     5
    Senator Thompson [ex officio]................................     5
    Senator Collins..............................................     6
    Senator Spector..............................................     6

                               WITNESSES
                        Wednesday, May 26, 1999

Hon. Christopher Cox, a Representative in Congress from the State 
  of California..................................................     7
Hon. Norman D. Dicks, a Representative in Congress from the State 
  of Washington..................................................     9

                     Alphabetical List of Witnesses

Cox, Hon. Christopher:
    Testimony....................................................     7
Dicks, Hon. Norman D.:
    Testimony....................................................     9

                                Appendix

Select Committee on U.S. National Security and Military/
  Commercial Concerns with the People's Republic of China, Report 
  Overview.......................................................    51
An article from The New York Times, May 26, 1999, entitled 
  ``America's Stolen Secrets''...................................    82
An editorial from The Washington Times, May 26, 1999, entitled 
  ``The Cox Report''.............................................    84
An article from The Washington Post, May 26, 1999, entitled 
  ``Nuclear Pickpocket''.........................................    86
An article from The Wall Street Journal, May 26, 1999, entitled 
  ``The Banquo Report''..........................................    87
List of General Accounting Office Reports on DOE Security Issues.    88


  AN EXAMINATION OF THE REPORT OF THE HOUSE SELECT COMMITTEE ON U.S. 
 NATIONAL SECURITY AND MILITARY/COMMERCIAL CONCERNS WITH THE PEOPLE'S 
                           REPUBLIC OF CHINA

                              ----------                              


                        WEDNESDAY, MAY 26, 1999


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:12 p.m. in 
room 342, Senate Dirksen Building, Hon. Thad Cochran, Chairman 
of the Subcommittee, presiding.
    Present: Senators Cochran, Lieberman, Akaka, Collins, 
Levin, Specter, Torricelli, and Thompson [ex officio].

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    We appreciate very much everyone's patience and we 
especially appreciate the effort that our colleagues from the 
House have made to be with us today.
    We are conducting a hearing of our Subcommittee to examine 
the report released yesterday by the House Select Committee on 
U.S. National Security and Military/Commercial Concerns with 
the People's Republic of China.\1\
---------------------------------------------------------------------------
    \1\ The report referred to appears in the Appendix on page 51.
---------------------------------------------------------------------------
    I'm going to put my opening statement in the record and 
invite our witnesses to proceed to discuss with the 
Subcommittee the findings they made and the report which they 
have released.
    [The prepared statement of Senator Cochran follows:]

             PREPARED OPENING STATEMENT OF SENATOR COCHRAN
    I'd like to welcome everyone to today's hearing of the Governmental 
Affairs Subcommittee on International Security, Proliferation, and 
Federal Services. Today we will examine the unclassified report, 
released yesterday, of the House Select Committee on U.S. National 
Security and Military/Commercial Concerns with the People's Republic of 
China.
    In his Pulitzer Prize-winning book The Making of the Atomic Bomb, 
Richard Rhodes writes that General Leslie Groves, head of the World War 
II Manhattan Project, laid down specific criteria for selecting a site 
to develop the world's first atomic bomb. According to Rhodes, General 
Groves specified that this site had to have, ``room for 265 people, 
location at least 200 miles from any international boundary but west of 
the Mississippi, some existing facilities, a natural bowl with the 
hills nearby that shaped the bowl so that fences might be strong on top 
and guarded.'' Clearly, the need for securing America's nuclear secrets 
has been of paramount importance since the start of the American 
nuclear program.
    Espionage has also been with us since the beginning of the nuclear 
program, and as has become so apparent recently, has led to the loss of 
valuable information.
    But espionage is not the only way in which the United States has 
lost sensitive technology, nuclear or otherwise. Because export 
controls on dual-use technology have been so significantly relaxed in 
the last 6 years, and not just for supercomputers and satellites, much 
technology and know-how that can be of great military assistance to 
other countries has flowed from the United States.
    These, and other, issues are examined in detail in the report 
before us today. Because of this report, and its classified companion, 
Congress is better prepared to determine accountability for this damage 
to U.S. National Security and to legislate as necessary to avoid 
further such damage.
    Since 1997 this Subcommittee has held nine hearings on some of the 
specific topics covered by the House Select Committee's work, ranging 
from hearings on supercomputer export controls to commercial satellite 
transfers to the proliferation activities of the People's Republic of 
China. We are very pleased to have with us today to discuss their 
important report Chris Cox, Chairman, and Norm Dicks, Ranking Member, 
of the House Select Committee on U.S. National Security and Military/
Commercial Concerns with the People's Republic of China.
    They deserve the highest praise for the outstanding job they have 
done on this difficult assignment. It is because of their dedication, 
hard and thorough work, and willingness to set aside partisan 
differences that they have produced a report that will define the 
meaning of ``oversight'' for many Congresses to come.
    Gentlemen, we look forward to your sharing with us the results of 
your investigation.

    Senator Cochran. We are very pleased to have with us today 
to discuss this important report the Chairman and the Ranking 
Member of the House Select Committee on U.S. National Security 
and Military/Commercial Concerns with the People's Republic of 
China, Congressman Chris Cox of California and Congressman Norm 
Dicks of Washington. They deserve the highest praise for the 
outstanding job they have done on a very difficult assignment.
    It is because of their dedication, hard work, and 
willingness to set aside partisan differences that they have 
produced a report that will define the meaning of oversight for 
many Congresses to come. Gentlemen, we welcome you to the 
Subcommittee.
    I'm going to yield to my colleagues for any comments they 
have and then we will hear from you.
    Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I'm pleased to join you in welcoming our colleagues from 
the House, Mr. Cox and Mr. Dicks. They and their colleagues on 
the Select Committee have done the country a great national 
service in producing the report which we are discussing this 
afternoon.
    I want to emphasize the bipartisan manner in which you 
conducted your analysis is an example to us all of the 
importance of placing bipartisanship above political interests 
for the sake of our Nation's security. I congratulate you, Mr. 
Cox and Mr. Dicks on a job well done. I thank you for your 
contribution to improving our national security.
    I have been shocked by the extent of the Chinese espionage 
efforts that have been exposed in your report. I wish we could 
say that our own efforts and commitments to conquering Chinese 
espionage was as relentless and as persistent as their ongoing 
efforts to acquire information from us. I think your report has 
made an enormous contribution in rectifying that gap.
    The President and the entire administration have taken 
major steps to reform our security at the National and Nuclear 
Weapons Laboratories and to improve our counterintelligence 
capability. Many of these changes were ordered by the President 
in February 1998, well before the House Select Committee was 
formed.
    I think there is no doubt that additional measures were 
taken as the extent of Chinese espionage became apparent during 
the Subcommittee's review. Let me make two cautionary 
statements.
    There is a great deal of discussion now in Washington as to 
whom to blame for the security lapses. There is the usual round 
of finger pointing and calls for this or that person to resign. 
Let me say that we should not waste our time searching for 
scapegoats, only our enemies can take solace when we turn to 
ourselves. Let us instead focus our attention at improving our 
security and rooting out those guilty of betraying America.
    Second, let us not sacrifice our efforts to build a 
constructive relationship with the Chinese people because of 
our collective horror at their government's perfidy.
    Much of what has occurred is to our shame for not being 
vigilant. We need to engage China. We have issues and problems 
which can only be resolved by cooperation. These include bread 
and butter issues such as reducing our trade deficit and 
improving market accessibility for American goods. They include 
global issues such as global warming and the proliferation of 
weapons of mass destruction.
    The Select Committee's report indicates that despite 
international commitments to the contrary, China continues to 
proliferate weapons of mass destruction. To convince China to 
cooperate with us in ending the threat of proliferation, we 
will need to engage China.
    Our foreign program at the National Laboratories has 
provided us with one opportunity to engage the Chinese on 
issues such as improving export controls. With enhanced 
restrictions, these programs I feel should continue. But 
engagement is not a one-way street. China needs to demonstrate 
that it wants to engage the United States in a constructive and 
cooperative manner. China can choose to swamp us either with 
spies or with friends. The choice is their's.
    I welcome our witnesses once again and I thank them for 
taking the time to testify before us this afternoon.
    Senator Cochran. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. I'll just say a 
few words.
    First, thank you and Senator Akaka for convening this 
hearing because I do think it's directly within the 
jurisdiction of our overall Subcommittee, and second, to thank 
our two colleagues from the House, Congressman Cox and 
Congressman Dicks, for an extraordinary act of public service 
and a very thorough, very comprehensive, very credible report 
that ultimately enjoyed bipartisan support. I appreciate it 
very much.
    For me and so many others, reading the report was an 
unsettling experience, particularly for those of us who have 
supported a policy of engagement with the People's Republic of 
China as the best way to not only gain freedom for its citizens 
but to gain its peaceful participation in the world community.
    This report, showing such broad and deep Chinese espionage 
efforts against the United States, coming as it does 
coincidentally after the intentional and outrageous attacks on 
our embassy in Beijing, I think should give us all reason to 
pause, not to rush to judgment about a rapid change in our 
policy toward the PRC, but to try to relate that policy to the 
reality that we saw on the ground in Beijing a couple of weeks 
ago and that we read in your very comprehensive report.
    It's hard to read the report and not feel angry, both 
toward the Chinese and honestly, toward ourselves. The Select 
Committee's report and other revelations that have come with it 
leave no doubt that the security in our Nation's laboratories 
has been woefully inadequate for years. The report, in other 
revelations, raised serious questions about whether once 
China's successful espionage was discovered, the Department of 
Energy, our law enforcement agencies, and the administration 
adequately responded.
    In fact, remembering one of President Kennedy's great 
books, it struck me as I finished reading your report that it 
might have been titled, ``How and Why America Slept.'' I think 
you've documented the how. The why probably needs more 
explanation. Unfortunately, descriptive words like 
incompetence, gullibility, wishful thinking, and even greed 
come to mind as possible explanations of the why.
    I think if there are two things we should not be in 
response to your report, they are partisan and defensive. It's 
clear from your report that China has been carrying out its 
espionage since the 1970's through administrations of both 
political parties. It also seemed evident to me that the 
espionage has gone on through the current administration and 
that in hindsight, its response after receiving notification 
was not as rapid as it might have been.
    I'm very grateful that the President did issue his decision 
directive last year aimed at improving security in the labs and 
that a very vigorous response to this critical problem is now 
being implemented by Secretary of Energy Richardson.
    How damaging was this PRC espionage to America's security? 
I've heard some say, and I agree, that today it's not very 
damaging. We have more than 6,000 strategic nuclear warheads 
while the PRC may have two or three dozen long-range nuclear 
missiles. But the fact is that as a result of the espionage 
that you have documented, the People's Republic of China will 
much sooner and at much less cost have a much greater ability 
to threaten our allies in the Pacific, to sell their stolen 
nuclear goods to rogue nations if they wish, and in fact, to 
strike the United States if they wish. That is a very serious 
prospect and one I think should not be understated or 
underestimated as we receive and evaluate your report.
    Finally, may I make a brief comment on the issue that I 
know originally gave rise to the Select Committee, and that is 
the concern that our export control system is improperly 
allowing China and other countries to obtain access to 
sensitive technology through commercial transactions with 
American companies. In some ways, it has been overlooked or 
underfocused on because of the allegations of espionage.
    I continue to feel strongly that robust trade with China is 
in our national interest but I am deeply troubled by your 
report's allegations that some American companies may have put 
their interest in profits above our shared interest in national 
security, allegations that the Justice Department and others 
are now investigating.
    The report raises very serious questions, both about the 
specific business actions that you describe but also about our 
technology export practices generally. That subject falls 
directly within the oversight jurisdiction of the Governmental 
Affairs Committee and I hope will be the focus of further 
hearings by our Subcommittee.
    Senator Cochran and Senator Akaka, let me once again thank 
you for holding this hearing and I thank our two colleagues for 
their extraordinary work. I look forward to hearing from them 
and discussing their report.
    Senator Cochran. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Mr. Chairman, I want to thank you and 
Senator Akaka and our two colleagues for coming over here today 
during a very busy day over in the House, we all know how that 
works. Mostly, I want to thank them for working together as 
bipartisan colleagues and producing a thorough report.
    It is really important that now in receiving your report 
and in considering and reading your report and studying it, 
that we act with the same kind of bipartisan deliberation that 
you two showed in producing it. This espionage has been going 
on for too long and the length of time over which the thefts 
have occurred and the lost opportunities that we had to stop it 
and the substance of the information the Chinese Government 
obtained is obviously very, very troubling.
    We've taken many steps in the last few years to try to plug 
the holes in the facilities that produce our nuclear weapons 
and design them. The President's Decision Directive took some 
steps in that direction. The bill on the floor of the Senate 
right now, which I have to return to manage as the Ranking 
Democrat, takes some additional steps in that direction. You 
have made a number of recommendations which I hope we will 
promptly consider.
    Most important, I believe, is that we respond with the same 
care, thoughtfulness and bipartisanship that you have 
demonstrated in the production of the report. I want to commend 
you both on it.
    Senator Cochran. Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman.
    I just want to congratulate these gentlemen for what they 
have been able to do. It was something frankly that we were not 
able to do in our Committee and that is to have a bipartisan 
effort. I hope it doesn't mean that it has to be a select 
committee anymore or that most of your work has to be done 
behind closed doors. For whatever reason, you were able to work 
together and both of you were able to do some things that 
didn't please your own parties. That's what it takes. That's 
the only way it can happen anymore in this environment that we 
have of contentiousness when we're dealing with sensitive 
matters and especially matters that are sensitive politically.
    So not only have you produced a great contribution to your 
country, you have proven that at least under some 
circumstances, some people can work together in a bipartisan 
fashion and withstand the pressures that are on you, the 
pressures that are on you to this day.
    Now that the report is out, I see where everyone is 
dividing again and trying to get the correct spin and put the 
pressure on each of you to spin it as much as you can their 
way. You've done a remarkable job with regard to all of that 
and I would urge you to continue to resist what you've been 
able to resist over the last year.
    I want to ask you some questions about the Justice 
Department's role in all this when my time comes. I'll stop 
with that for right now. Thank you for being with us.
    Senator Cochran. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    I first want to commend you for holding this important 
hearing. I know it's a continuation of your longstanding 
interest in this area. I remember well your raising some alarm 
bells about the export of high performance computers. You were 
certainly correct in doing so as this report documents.
    I also do want to join in the accolades for the two 
Congressmen who are here today who have done a tremendous 
service by their careful and thorough documentation of the 
enormous breaches in our national security. I found the 
revelations in your report to be truly shocking and they give 
me great cause for concern as they do all Americans.
    I look forward to hearing about your report in more detail 
and to asking you some questions.
    Again, thank you for your tremendous contribution.
    Senator Cochran. Senator Specter.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you, Mr. Chairman.
    I've been in the Senate for a while, but I've never heard 
members of the House of Representatives complimented so highly 
and that is unique. In a Senate proceeding, as Congressman 
Dicks pointed out, it's unique. I think it is more than unique. 
It's really extraordinary and I think very well deserved.
    The import of what you have submitted is of enormous 
consequence. The espionage on the neutron bomb and the 
espionage on the warheads is truly staggering. It goes over 
administrations which have been both Republican and Democrat, 
so that there is enough blame to go around on a bipartisan 
fashion. What has to be done is not to focus on the issue of 
blame, but to look hard to find ways to be sure that it does 
not recur in the future.
    Your report has brought squarely into the front and center 
the issue of how we handle exports, how we handle ballistic 
tests and what we do by way of waivers on satellite launches 
because if you put the weapons together with the satellite 
potential, the reality is that American cities and Americans 
are put at risk, at least by the year 2005. So you've given us 
a very important starting point.
    The secrets were obtained in three ways: One, by espionage, 
one by voluntary U.S. transfers of technology like the 
computers and the other on campaign contributions. I think we 
have to make an assessment as to what has been most cost 
effective to the Chinese as they have worked those three paths.
    Congratulations.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    You may proceed, Mr. Cox. Welcome.

STATEMENT OF HON. CHRISTOPHER COX, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cox. Thank you, Mr. Chairman.
    I wish to thank the Members of this Subcommittee, both for 
the work you've done on these and related issues prior to the 
creation of our Select Committee and for the time and attention 
that you paid to the subject matter even throughout the period 
of our investigation and declassification of our report. I know 
several Members of this Subcommittee have come to our secure 
facility to read the full classified version and to get briefed 
on various aspects of it.
    That acknowledgement of the gravity of the subject matter I 
think is going to help the Congress see to it that appropriate 
steps are taken to remedy the problems we've identified.
    This is the first day that we'll have the opportunity to 
talk about much of what is in the report in open session. For 
that reason, even though Representative Dicks and I have given 
joint briefings such as this many times in classified session, 
you may see us bite our tongues from time to time to make sure 
that we stick to our streamlined script here and leave aside 
the rest of it.
    You can't solve problems you can't talk about--at least not 
in a democracy--and it's very important that we have this 
opportunity in open session to talk about the big picture 
issues illustrated in our report and that is the purpose of our 
briefing today.
    I would say in response to Senator Akaka's point, because I 
agree with everything he said, we need to anticipate some of 
what is going to be said about this report from the PRC side. 
In fact, Ambassador Lee has been giving us the Communist Party 
line of late. We are going to hear that this is anti-Chinese. 
The Communist Party takes the view in fact that if you disagree 
with their policy, you are anti-Chinese.
    I think all of us can readily distinguish between what is 
the Communist Party and what is China. So we are careful in 
this report always to refer to the PRC and try to avoid in any 
connotation whatever suggesting we're talking about China's 
5,000-year-old culture, Chinese Americans in China or anything 
of the sort.
    The only effort that I know of to contain China, which we 
are often accused of, is the effort mounted by the Communist 
Party to contain freedom of the people who live there.
    Having said that by way of preamble, I will briefly 
introduce the contents of our report. We studied in some detail 
the issue that you also have been interested in on this 
Subcommittee and that is the Hughes and Loral after accident 
reviews that, allegedly at the time we began our investigation, 
had contributed to the advancement of Long March rocket 
technology and possibly derivatively ballistic missile 
technology.
    Four chapters of our report are devoted to this in various 
ways. There is a chapter on Hughes, a chapter on Loral, a 
chapter on the space insurance industry's role in technology 
transfer to the People's Republic of China and a chapter on the 
site security at launch site.
    Next, we deal with PRC missile and space forces, both where 
they are today and how they got there, on the one hand, and 
where we see them headed and the ways in which technology that 
has been stolen of late might be integrated into those future 
forces.
    Third, there is a chapter on what we have richly discussed 
in recently days, the theft of thermonuclear warhead design 
information. We have a chapter on high performance computers 
which several Senators referenced in their opening remarks.
    We are especially interested in this area of export control 
because now that so many horses are out the barn door, the 
question arises what can be done. You can't get those nuclear 
secrets back but is there something we can do to at least 
postpone the perfection of those thefts to at least prevent, in 
the short run if not the medium and long run, the weaponization 
of those designs.
    High performance computers are absolutely essential as a 
tool to weaponizing and maintaining once weaponized, those 
modern nuclear weapons.
    We have focused on our export controls and the manner in 
which we should address that topic in light of what we now 
know. Some of our very significant recommendations fall in this 
area and I think will be of great interest to the Select 
Committee, in particular, our interest in a multilateral regime 
of export control.
    Presently, and only for the very recent history, we have a 
unilateral system, one in which each country acts in whatever 
way it chooses. We had a multilateral regime up until 1994 but 
at that time COCOM was disbanded 3 years after the collapse of 
the Soviet Union. It was thought there was no need for 
multilateral control any longer. For 2 years, we had nothing at 
all. Then we got Wassenaar and Wassenaar operates on the 
principle of ``national discretion,'' which is a great 
euphemism that means every country gets to do whatever it 
likes.
    So now when a CEO comes into your office and says, Senator, 
I'd love to stop selling things to the People's Liberation 
Army, but if I don't sell it, some other country will, they are 
essentially telling it straight because that's the way our 
system works. When we enforce our export controls against U.S. 
companies, we find self-abnegation as a national policy doesn't 
work, we succeed in stopping U.S. companies and perhaps 
injuring U.S. workers but we get no national security benefit 
if somebody else fills that gap. We have the worse of both 
worlds right now.
    We have a section on commercial and intelligence operations 
in the PRC as the opening chapter of our first volume. It's 
essential to an understanding of what's going on because we did 
not discover in our investigation a single incident, we did not 
discover something that happened during one President's 
administration. We discovered something that has gone on for 
some time and if anything, is accelerating but accelerating 
pursuant to policy determined not only in the State councils 
but in the Communist Party councils in the People's Republic of 
China.
    I would yield at this point to my colleague.
    Senator Levin. Mr. Chairman, I hate to announce this, but 
we have a vote that is occurring on the floor of the Senate and 
the second bells have rung. I'm going to go over and make that 
vote, if you would excuse me for doing that. We will be back 
very quickly though and we will suspend until we can go vote.
    [Recess.]
    Senator Cochran. The Subcommittee will come to order.
    When we left, the contents had been reviewed by the 
Chairman and he had yielded to Senator Dicks--Congressman 
Dicks. Sorry about that insult, Norm--Congressman Dicks.
    Mr. Dicks. I started my career over here on this side, so 
I'm proud to be over here.
    Senator Cochran. We're proud you're back. You may proceed.

STATEMENT OF HON. NORMAN D. DICKS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Dicks. First of all, let me say we appreciate very much 
the very kind remarks about our effort. This was not easy, as 
you can imagine, doing this is the midst of impeachment, but we 
had a great Senator from Washington State, Henry Jackson, who 
used to say ``When it comes to national security, the best 
politics is no politics.'' I've always believed that and Chris 
Cox and I were able to work together. We don't agree on every 
single word in this report but overall, we feel this is a solid 
piece of work.
    Interestingly enough, the issue that we started off on was 
obviously was there any connection with campaign contributions, 
but the other was, and the thing we started focusing on was, 
the U.S. companies--this started under President Reagan--who 
had gone to China to launch our satellites on their rockets. 
The reason that happened was because the Challenger accident, 
we lacked capability within our own country and therefore we 
had to try to do these launches there.
    We set up security procedures and we'll get into that a bit 
later. In the first three or four slides, the real story is 
that the companies had failures. There were three separate 
crashes of these rockets on launching. Because of that, 
obviously the insurers were very concerned, there was a lot of 
pressure on Hughes and Loral to get these problems corrected.
    Unfortunately, they held post-crash discussions with the 
Chinese that were not authorized under their license. It was 
our opinion that they knew about this and they should have 
gotten the additional license but for whatever reason, chose 
not to do that. Because of that, very important design and 
reliability information was transferred. They learned a lot 
about how we do failure analysis and so that technology and 
information flowed to them.
    Again, on slide four, we mention the dates--1993-1995--
Hughes showed the PRC how to improve the design and reliability 
of PRC military space launch vehicles. Of course this was not 
appropriate under their license. In 1996, Loral and Hughes 
showed that the PRC had improved the design and reliability of 
the guidance systems used in the PRC's newest space launch 
vehicle. So this happened and the upshot of it is that there 
could be a potential spinoff here between the space launch 
rockets and the PRC's long launch rockets which could be used 
for military purposes--are used for military purposes, for 
example, military communication and reconnaissance satellites, 
the launching of those, space-based sensors, space-based 
weapons they've successfully developed, satellites for modern 
command and control and sophisticated intelligence collection. 
We thought this was a very important matter and we spent 
considerable time on it.
    To talk about some of the specific things they benefitted 
from, one would be missile design, design analysis, testing 
procedures and the application of technical know-how because of 
a particular failure analysis.
    Mr. Cox. I would just add to what Representative Dicks has 
just said that we also looked very carefully at site security 
in the People's Republic of China. When President Reagan 
determined in 1988 that it would be possible in the future for 
U.S. satellites to be launched atop PRC rockets, one of the 
premises was that there would be outstanding security that 
would protect the transfer of technology, protect against that. 
We have operated on that assumption for many years.
    What we learned in our investigation, however, is that no 
such sound security is provided. These are essentially rent-a-
cops that are hired by the satellite firms and are the only 
thing standing between the People's Liberation Army and our 
national security.
    What we heard in testimony in our closed sessions was that 
these Pinkerton private security guards would show up to work 
drunk, they would show up for night duty with sleeping bags and 
they were more interested in spending time with prostitutes 
provided for them by the PRC government no doubt than doing 
their jobs as a consequence of which the satellite was left 
unattended, the site was not secured and there are literally 
scores of breaches of security which were not reported to DTSA 
top management to the Defense Department agency responsible for 
this that are listed in this report, some of which are very 
serious indeed.
    We cannot say because we were not there that in consequence 
of any one of these breaches of security, PLA was able to 
obtain information. We weren't there and we didn't see it, so 
we don't report that in here. What we do say in this report is 
that in light of the PRC's aggressive espionage campaign, which 
we've seen across the board directed against military 
technology in all areas, it would be surprising if the PRC had 
not exploited these opportunities.
    In a world where we cannot know all the facts, we have to 
make reasonable inferences and living in the real world as we 
do, it's a fair inference to draw. Next slide.
    It is in the national security interest of the United 
States to increase domestic, U.S. launch capacity. Again, that 
1988 decision to put U.S. satellites on top of Chinese rockets, 
PRC rockets, was meant to be a short-term expedient to make up 
for our lack of launch capacity which we hoped would be 
temporary, particularly in the wake of the Challenger disaster. 
Here we are 10 years later seemingly permanently reliant on 
that arrangement.
    Because of the commercialization of space, because of all 
the commercial opportunities, I think we're tempted to overlook 
the fact that there is a real national security payoff to 
having even our commercial satellites launched in the United 
States. So we are recommending that we urgently put as much 
energy and effort as we can not only into increasing capacity 
at Cape Canaveral and at Vandenberg, but also to adding new 
capacity, for example, utilizing U.S. territorial possessions 
on the equator, not stinting in any way on what we will do at 
Cape Canaveral and Vandenberg providing increased capacity. 
Some of that is underway and we ought to be very supportive of 
that, but adding to that capacity. There is a national security 
as well as a commercial payoff to doing that.
    In addition to the kinds of tech transfer that occurred in 
connection with the PRC launch of U.S. satellites, there is 
outright theft of technology. In particular, guidance 
technology currently used on the U.S. Army tactical missile 
system, currently used on the U.S. Navy stand-off land attack 
missile, extended range, the U.S. Navy F-14, the U.S. Air Force 
F-15, F-16 and F-117 fighter jets, has been stolen by the 
People's Republic of China. The stolen guidance technology has 
directed applicability to the PRC's intercontinental ballistic 
missiles, their intermediate and short-range ballistic missiles 
and their space lift rockets.
    The Select Committee has uncovered instances of the PRC's 
use of this stolen guidance technology and that use--this is as 
much as we can say in an unclassified setting--enhances the 
PRC's military capabilities, jeopardizes U.S. national security 
interests and poses a direct threat to the United States, our 
friends and allies or our forces. This is an area where it has 
been determined that because of sensitive sources and methods 
we can go into it no further but some of you have had the 
opportunity to see this and those who have not, I hope will 
take the time to do so.
    I yield to Mr. Dicks.
    Mr. Dicks. In the late 1990's, the PRC stole or illegally 
obtained U.S. developmental and research technology that if 
taken to successful conclusion, could be used to attack U.S. 
satellites and submarines. In the late 1990's, the U.S. 
research and development work on electromagnetic weapons 
technology that once developed can be used for space-based 
weapons to attack satellites and missiles, I'd point out we 
gave up on this. We were not able to do this, so there is some 
question about whether the Chinese are, in fact, going to be 
able to do this.
    In 1997, in the Lee case, U.S. developmental research 
concerning sensitive submarine detection techniques, some of 
you may know who serve on defense committees, there are a 
number of highly compartmented programs here. I think Mr. Lee 
was exposed to one of those.
    ICBMs targeted on U.S. cities are based on U.S. technology 
illegally obtained by the PRC in the 1950's which illustrates 
the potential long-term effect of technology loss. We had an 
individual in the 1950's, a military officer, Mr. Xuesen, and 
associated members for the design team for the U.S. Titan 
missile which illegally gave U.S. missile and missile-related 
technology to the PRC. This information formed the basis of the 
PRC's CSS-4 ICBM targeted on the United States and for the 
construction of the SS-4 silos.
    So these things do have long-term consequences. These are 
the weapons that they are still relying on as we speak.
    Mr. Cox. Those weapons, the CSS-4s have been chiefly 
deployed during the 1990's, even though they are based on Titan 
technology that left the United States via a man that 
subsequently became General Xuesen in the 1950's. So the point 
Norm makes I want to underscore. There are very long-term 
consequences.
    The PRC had only two ICBMs at the beginning of this decade. 
They have deployed the entirety of the rest of their force of 
approximately 20 during the 1990's and the majority of those 
ICBMS, as you know, are targeted on the United States. That 
Titan technology, that 1950's Muntz TV era technology is still 
perfectly useful to threaten all of our American cities from 
Los Angeles to Washington, D.C., all of which are within range 
of that missile. So we have to worry about 10 years, 15 years 
down the road what is going to become of this information that 
was just recently stolen, the most modern nuclear weapons 
technology on the planet. Will it find its way through the 
stream of commerce into the hands of regimes less stable than 
the People's Republic of China, or Third World regimes or 
terrorist states who might have interests far more hostile to 
the United States than the PRC's.
    It's for that reason that we are so especially concerned 
about the details in this graphic, the People's Republic theft 
of design information on the United States most sophisticated 
nuclear warhead, the W-88. In addition to the W-88, we have 
lost design information on the W-70 and classified information 
on a number of U.S. warheads, collectively comprising the 
entire currently deployed U.S. nuclear arsenal as well as two 
weapons that we do not deploy, the neutron bomb which we have 
never deployed, and another which we have retired.
    The Select Committee judges that this stolen information 
will find its way into the PRC, PLA weapons currently under 
development. The DF-31 intercontinental ballistic missile, 
which has been in development for over a decade, we expect will 
be tested this year and we estimate it will be deployed in 
2002. On top of that missile--when, as and if deployed--we 
anticipate there will be a nuclear warhead incorporating 
elements of the stolen U.S. nuclear weapons designs.
    Finally, PRC penetration of our national laboratories where 
this information originated undoubtedly continues to the 
present. We can say this with some confidence because the 
people who did this have not been apprehended. We're having a 
great deal of difficulty in finding suspects. We don't even 
have any real open cases with respect to the nuclear warheads 
other than the W-88. Inasmuch as that is true, even though 
we've done a lot, particularly in the last few months, 
Secretary Richardson has done a great deal to make sure you 
can't move information from classified areas of the computer to 
the unclassified so readily or at all, we would hope.
    The people, who we have not identified, that undoubtedly 
work inside the labs because undoubtedly this was an inside job 
are presumptively still there. So we have to be concerned about 
the ongoing penetration of the national laboratories.
    The People's Republic of China has stolen information on 
seven thermonuclear warheads. The W-70, in two different 
configurations, can be used as a strategic thermonuclear weapon 
or as an enhanced radiation weapon, a so-called neutron bomb. 
The PRC tested the neutron bomb--which it first stole in the 
Carter Administration in the late 1970's--in 1988 at the end of 
the Reagan Administration. They then came back for more and it 
was reported in 1996 that there was a further theft from the 
national laboratories of additional neutron bomb information.
    The next chart will list the nuclear missiles to which 
these warheads are mated--the W-88 to the Trident D-5 submarine 
launch ballistic missile; the W-87 to our Peacekeeper ICBM; the 
W-78, a Minuteman III, Mark 12A; the W-76, Trident C-4; the W-
70 to the Lance short-range missile; the W-62 is on the 
Minuteman III; and the W-56 on the no longer deployed Minuteman 
II.
    The Select Committee judges that these thefts will find 
their way into the next generation of PLA weapons currently in 
development. The F-31, as I said, we expect will be tested this 
year.
    Despite these thefts, despite the recency of some of these 
thefts, sophisticated nuclear weapons technology, security at 
our national nuclear weapons laboratories does not meet even 
minimal standards or did not at least at the time we wrote our 
report. Ed Curran who has been hired to be the new 
counterintelligence director at the Department of Energy 
testified before our Select Committee not only that 
counterintelligence at the DOE and at the national laboratories 
did not meet even minimal standards, his very words, that it 
would not meet even minimal standards until some time in the 
year 2000. That obviously is unacceptable.
    In more recent times, I think Secretary Richardson and Ed 
Curran and the Congress have all agreed that we've got to 
accelerate that and efforts are now underway to do everything 
possible to accelerate that. One of the chief ends of our 
oversight was to ensure that acceleration took place. I'm 
confident that it's now underway.
    Mr. Dicks. Since this makes up the principal part of the 
report, let me just talk a bit about the issues the Chairman 
has just reviewed these last few slides.
    First of all, I agree, I think Ed Curran is a professional 
who had the experience in the CIA's Counterintelligence Office, 
and I think he can do the job that's necessary at these labs to 
get in place a first rate counterintelligence program, which 
hadn't existed since the 1970's, if ever. It's the culture out 
there I think that is the problem.
    On the missiles, I think the two that are most important 
are the W-70 and the W-88 because they got design information 
on both of those and they tested both of those. The W-88 was 
tested in between 1992 and 1996, the W-70 in 1988. They've 
tested these missiles but they have not yet deployed anything.
    Some people, for example, Johnny Foster with a great deal 
of experience in the damage assessment, question whether 
they're going to be able to take this technology they have 
stolen and actually be able to implement and deploy it. We 
agree that if they do, they're going to use elements of what 
they stole if they go to a mobile and the DF-31 or in a 
submarine launch missile system.
    Thus far, even though this is terrible and tragic, and 
never should have happened, thus far they have not been able to 
successfully deploy something new. We're just going to have to 
wait and see what happens there.
    The next subject we want to get into is the high 
performance computers. The Chairman mentioned this in the 
initial discussion. Obviously high performance computers are 
very sensitive because if in fact they have received some of 
our nuclear codes, they could use the high performance 
computers to help with modeling, design work and other things 
that would help them improve the capability of their designs.
    They have gone from a period, moving on to the next slide, 
where they literally had no high performance computers--they 
built one or two indigenously--to now having 600 of U.S. 
origin. The question is, the MTOPS levels, are they at such a 
level that they can really contribute, can you parallel process 
these computers to take them to a higher MTOPS level which may 
be needed to do the modeling and design work in perfecting one 
of these weapons.
    One of the things is they signed the Comprehensive Test Ban 
Treaty in 1996 and there are a lot of people who believe you 
can't really do these things without thorough testing. They had 
some testing on the W-88 between 1992 and 1996 but whether they 
would really have the confidence to be able to deploy their 
version of it is a question mark.
    We agreed, and we have three or four recommendations, that 
we ought to take another look at our policy on high performance 
computers and be more careful, make sure the Defense Department 
and the State Department have an ability to have the time 
necessary to thoroughly review these applications and licenses 
because there are serious defense implications.
    On chart 21, you can see some of the areas where high 
performance computers can be used in the research and 
development of missiles, satellites, spacecraft, submarines, 
aircraft, military system components, command and control, 
communications, microwave and laser sensors. These are very 
important areas.
    Mr. Cox. As Representative Dicks just pointed out, while 
the PRC had essentially no HPCs on January 1, 1996, they have 
been able as a result of change in our policy to acquire, under 
license from the United States, over 600 since that time. That 
coincides precisely with their signing of the Comprehensive 
Test Ban Treaty and the completion of their testing.
    At the same time the PRC decided it would sign the 
Comprehensive Test Ban Treaty, they had just completed their 
series of successful tests with the weapons they stole, the W-
88. You know the details, if you read the classified version of 
this report, of how rapidly that occurred.
    Our concern is this. With successful testing under their 
belt, and with current bans on physical testing, will they be 
able to use high performance computers as an end run to do so-
called virtual testing. The United States does not like to rely 
on virtual testing for a number of reasons, including safety 
but a significant finding of the Rumsfeld Commission was that 
other countries don't have our standards. In fact, some Third 
World countries might be willing to use as their first nuclear 
test, their first actual use of the weapon and find out whether 
it works.
    The possibility that the PRC might be willing to rely on 
virtual testing in ways that we would not consider satisfactory 
is very real. Moreover, if the People's Republic of China were 
successful in acquiring our test code legacy, which has been 
much in the news since we reported on January 3, then the 
requirements for speed in high performance computers would be 
vastly reduced. If you possess no test data at all, then you'd 
need about 1 million MTOPS to get the job done with no test 
data at all.
    If you have test data which you acquired from the Russians 
or from the United States, then those bets are off and you can 
get by with a much slower computer to do the same work for you. 
So we have warned in this report dated January 3 about the fact 
you could move information from the classified to the 
unclassified sections of the computers at the National Weapons 
Laboratory. In the spring of this year, our government 
discovered that's exactly what had happened. We are worried 
about the compromise of our codes. It's directly relevant to 
what we're talking about here.
    Since January 1, 1996, the United States has actually sold 
HPCs, over 600, to the PRC, to PRC organizations involved in 
the list that Norm just read to you--missiles, satellites, 
spacecraft, submarines, aircraft, military systems components, 
command and control, etc.
    The United States has no way to verify that the U.S. high 
performance computers aren't being used for those purposes at 
the destinations to which they've been licensed for sale. That 
has to concern us a great deal.
    Of course when we sell these things under license, we 
intend that they not be used for these purposes, but living in 
the real world as we must, if we sell the computers to 
destinations engaged in these activities, and we have no way to 
verify what they are actually being used for, then shame on us.
    Since 1998, we've had an end-use verification agreement 
with the People's Republic of China which is the right idea and 
the right start. It is toothless and it doesn't work. We 
criticize it directly in this report as being inadequate 
because, for starters, the PRC can elect whether or not to 
permit an inspection. Second, they can elect whether or not the 
United States can come and watch. Third, there are sharp time 
limits on when the inspections can be permitted and there are 
so many qualifications on whether there will be inspections 
that it is an utterly meaningless provision.
    There has been in real life only one inspection since that 
agreement was reached in 1998. One of our significant 
recommendations is that as a term of trade, the United States 
insist that there be transparency, that we know what these 
computers are being used for, not as a sovereign commitment by 
the PRC but simply as a term of trade. I think it's a 
reasonable term of trade for us to say, if we're going to sell 
you these computers in light of what we know, we'd be happy to 
sell them to you but we want to make sure they're being used 
for peaceful, nonmilitary purposes.
    I mentioned at the outset that we have changed our export 
control policies in a number of areas, particularly disbanding 
COCOM in 1994. The Select Committee finds that the United 
States and international export control policies and practices 
have actually facilitated the PRC's efforts to obtain 
militarily useful technology.
    Without a multilateral regime, we have essentially let down 
our guard and information we would like to protect is thus 
making its way to the PRC, not only from the United States but 
also from our allies. In addition, the expiration of the Export 
Administration Act in 1994 has left export controls in place 
only under executive order using the President's authorities 
under IEPA. As a result, even while the same rules are in place 
that used to be in place under the Export Administration Act, 
the penalties are essentially toothless. Under Secretary of 
Commerce Reinsch has testified before our committee that these 
penalties are not enough to get the attention of companies that 
we expect to be deterred.
    Furthermore, in 1995, the United States reduced the time 
available for the national security agencies to look at pending 
export licenses. In light of the volume and complexity of 
licensing activities, that's exactly the wrong direction in 
which to move. We certainly need to make sure that we have well 
trained and adequately staffed resources at the Department of 
State and at the Department of Commerce so we do not burden 
business but also so that the national security and 
intelligence communities can get their licks in as well as the 
commerce people when we consider what to license for sale.
    If Norm were back, this is his presentation at this point, 
he would make the point that I will make up on the slide right 
now. We found that our principal reliance, our chief reliance 
in our export regime on corporate self-policing is misplaced, 
not because U.S. companies are bad, to the contrary. U.S. 
companies spend a lot of time and effort trying to comply with 
our Washington regulations and to do the right thing time and 
time again. The problem is that we're placing an unnatural 
burden on their systems because of the inherent conflicts of 
interest. They are in a hurry, they're competing with others, 
not just in the United States but from around the world. They 
have a lot of pressures on them to make a sale, to please the 
customer, which in this case is a foreign country trying to 
suck technology out of them in many cases.
    So rather than place that burden on them in addition to the 
financial burden, because they have a bottom line to worry 
about and security costs money, we recommend, for example, with 
respect to overseas satellite launches, the Defense Department 
take charge of this. Let the Defense Department be responsible 
for providing the security at the launch site, not the company 
and not the rent-a-cops. This way we would have direct national 
security responsibility rather than privatized corporate 
responsibility.
    The same thing is true with respect to many of the changes 
made to our export licensing regime. It increasingly relies on 
self-policing and for the same conflict of interest reasons, it 
is self-conflicted and likely to fail.
    There are several examples of the People's Republic of 
China's willingness to use commercial transactions as a means 
of acquiring technology that can then be diverted to military 
use. We have spent considerable amount of ink documenting two 
case studies, one the 1994 McDonnell-Douglas sale of machine 
tools to the People's Republic of China where for a period of 
years the PRC essentially lied to us about their intention all 
along to divert the machinery for use at the Nanching aircraft 
factory rather than the stated purpose which was to make 
commercial aircraft in the PRC.
    The second case study was the decontrol of Garrett jet 
engines which the PRC wanted to acquire. These are military 
purpose jet engines and they wanted to acquire them for cruise 
missiles. The Commerce Department was prepared to approve this 
transfer of technology which was only thwarted when the Defense 
Department was alerted by the U.S. Embassy in Beijing to the 
intended diversion.
    The first chapter in the first volume of our report deals 
with the way the technology acquisition policy is determined 
inside the governmental structure of the People's Republic of 
China and inside the Communist Party structure, the standing 
committee of the Politburo and in the Central Military 
Commission, which is a Communist Party organization.
    In 1997, the PRC codified an earlier policy known as the 
16-Character Policy and those 16 characters literally 
translated mean combine the military and the civil, combine 
peace and war, give priority to military products, let the 
civil support the military. The PRC seeks advanced U.S. 
military technology to achieve its long-term goals. Enunciated 
in Chapter 1 are policies of military technology acquisition 
that are very elaborate that explain what we're looking at is 
not a single instance unrelated to other single instances but 
rather part of an overall espionage and other forms of 
collection effort to acquire U.S. military technology. It 
relies upon a great many people.
    The fact it is so manpower intensive poses special 
challenges to the FBI they report to us. The MSS, the chief spy 
agency in the People's Republic of China, does not always 
control and direct the agents that are involved in technology 
collection. There is a decentralized effort in which people 
associated with large State-owned corporations operating either 
directly or indirectly in the United States can also be tasked 
with the acquisition of information and which people in smaller 
organizations can be tasked with collection requirements. It is 
through this sort of decentralized effort that some of our 
nuclear secrets have been lost, it is suspected.
    I do hope that Mr. Dicks can return to make this point 
which is one he feels very strongly about and that is the 
complication of our efforts by third party cooperation with the 
PRC's technology acquisition efforts, in particular, Russian 
cooperation. A signal purpose of our longstanding policies 
toward the People's Republic China while there was a Soviet 
Union was to prevent military cooperation between the PRC and 
the Soviet Union. What we are now seeing is whereas there is no 
longer a Soviet Union, Russian cooperation with the PRC is 
greater than ever and we are very concerned about expanded 
military cooperation between the PRC and Russia.
    While the PRC does not possess, for example, our 
sophisticated nuclear warheads, the W-88, they don't have such 
a thing, and that has been stolen from us by the PRC, Russian 
cooperation on a number of other fronts is greatly of concern. 
When you add the two together, it makes it very difficult for 
us to know precisely where the PLA's development program really 
is.
    I would yield to Mr. Dicks. This is a topic I know you care 
greatly about.
    Mr. Dicks. On this one, we have a great deal of concern 
about dual use technology and how that is handled. Of course 
here, one of the things we discovered in this is that Russia 
has given a tremendous amount of technology to China. In fact, 
many experts, when they compare the two, compare what the 
Chinese are getting from us and what they're getting from 
Russia, Russia gives them a great deal of very important 
equipment, pull up military systems and a lot of other things. 
We think that is one area we need to focus on in our dealings 
with the Russians.
    Finally, the PRC has proliferated nuclear missile and 
space-related technologies to a number of countries as the 
Chairman mentioned and this has to be a concern for us that if 
we're lax in terms of allowing them to gain important U.S. 
technology, particularly the nuclear matters, you have to worry 
about proliferation, whether they are going to go on to other 
countries.
    That basically wraps it up. We're willing to take any 
questions.
    Senator Cochran. Let me thank you both for an outstanding 
presentation, very interesting and very disturbing, very 
thorough, obviously capturing the essence of the findings that 
your committee has made.
    One thing I noticed in looking at a summary that I read 
just this morning was the tendency of the PRC to reengineer 
military equipment and hardware. You were talking about the 
sharing of information between Russia and the PRC and I 
understand they've developed and built an Exocet missile which 
they then sold to Iran. They copied the entire weapons system. 
That's what I read in this unclassified summary--also a Russian 
tank that they actually built themselves by reengineering it. 
Are there other examples in the unclassified report that you 
can tell us about that shows the expertise that the PRC has to 
do that kind of thing? Is it equal to anywhere else in the 
world?
    Mr. Dicks. The accelerometer that we talked about earlier, 
they took off an airplane and they were able to use it in a 
whole variety of different ways--intermediate missiles, things 
that were proliferated--so they are very good at it.
    The high performance computer, didn't they build one of 
their own based on one of ours?
    Mr. Cox. Yes. What we said about HPCs earlier is directly 
relevant here. The PRC went to great lengths to reverse 
engineer a high performance computer. To our knowledge, they 
built one or two. They've done this entirely with U.S. 
components. They have no indigenous capacity to build high 
performance computers but it cost them a lot of time, energy 
and effort to do this. They were so hell bent on trying to 
acquire the technology itself that they spent far more money 
than they would have to acquire a brand new computer on the 
market. By the time they were finished, such a thing was 
available that exceeded the speed of the one they were copying. 
The intent to acquire the technology and reverse engineer it is 
paramount.
    Senator Cochran. There was another part of your report 
right at the outset that I found quite interesting. Your 
conclusion that some of our own companies illegally 
transferred--and that was your word--information to the PRC 
when they were sharing know-how and technology with respect to 
launches of satellites. You even identify Loral and Hughes as 
two companies which did that.
    Was your review of the facts so thorough that it enabled 
you to make a conclusion that they have violated the law? You 
said illegally. Did you make a judgment about whether they have 
committed criminal conduct?
    Mr. Cox. We were careful to distinguish between our finding 
and what the Justice Department has to do. It was one thing for 
us to say that the corporations deliberately acted without the 
required license, and that's what we said. They knew they had 
to get a license, they deliberately avoided doing so.
    Whether or not the Justice Department can pluck from a 
corporation an individual and say you personally are 
responsible for criminal conduct is a different standard 
altogether. So we don't know what information they have inside 
the Justice Department. We conducted our own investigation. We 
knocked on that door at Justice repeatedly and asked for 
assistance on the national security side of what we were doing 
but they did not share information with us.
    Furthermore, we were very careful not to grant immunity to 
particular witnesses, for example, as Wah-Lim at Loral, so that 
the Justice Department preserve its prosecution. They had asked 
us to forebear from granting immunity in several cases and we 
worked in the Justice Department in each case, granting 
immunity only where they agreed.
    Senator Cochran. Was it your opinion based on your 
investigation that the Commerce Department was complicit in 
this arrangement between these two companies and the PRC in 
connection with sharing information?
    Mr. Cox. We took depositions and interviewed several people 
at the Commerce Department and I think you will see in the 
narrative with respect to the Commerce Department license that 
was granted by a licensing officer named Gene Christiansen that 
he told our committee he should never have granted that 
license, that Commerce didn't have the authority to do it. I 
find his behavior and the lack of any apparent supervision, 
which either means complicity of superiors or negligence to be 
utterly inexplicable.
    Mr. Dicks. Going back to Loral and Hughes, they both did 
self-disclose. I think there had been something in the press 
and then they came in and said, yes, we should have gotten the 
license. It was our judgment looking at all the facts that they 
knew they should have gotten the license and didn't do it. In 
our system it's the courts that make these decisions but it was 
pretty clear to the other members that there was a violation of 
the law here.
    Senator Cochran. I can remember when we had a hearing with 
representatives of both companies before our Subcommittee and 
explored how they were able to do this without getting a 
license from the State Department, whether things were on the 
munitions list and exempted or not subject to licensing and all 
of the rest. This brings back a lot of memories I have of 
questions we asked of those officials and of the Commerce 
Department on this subject. We've had nine hearings since 1997 
on this subject and related subjects.
    One thing I remember they disclosed was that one of the 
problems that caused a launch failure was the fairing or what 
some would call shroud. It depends on whether it's a space 
launch vehicle or an intercontinental ballistic missile. On one 
it's the fairing and on the other, it's the shroud. They kept 
pointing out to the Chinese, who were working with them on 
this, that they needed to repair the launch vehicle and they 
finally did and that's what saved them on future launches.
    Mr. Cox. There is no question. In fact, internal documents 
showed they were quite distraught after they had told the PRC 
how to fix the Long March rocket that they hadn't adopted all 
of their suggestions and another one crashed, so they doubled 
their efforts to make sure that rocket got fixed.
    Senator Cochran. Without approval from our government?
    Mr. Cox. No. Any kind of defense service such as that, that 
would provide assistance to the PRC in making the rocket fly 
better would require a State Department license and it was very 
clear from the internal memoranda, correspondence testimony and 
other evidence that they knew if they went to the State 
Department such a license would be nearly impossible, if not 
impossible to obtain.
    Senator Cochran. My final question before yielding to my 
colleagues is, my understanding from a statement President 
Clinton made yesterday is that he said, ``We have strict 
controls on the transfer of sensitive commercial and military 
technology to China.'' Do you agree with President Clinton's 
statement?
    Mr. Cox. Can you read that to me again?
    Senator Cochran. ``We have strict controls on the transfer 
of sensitive commercial and military technology to China.''
    Mr. Cox. I think that statement on the face of it is 
something I can agree with. The trouble is those controls don't 
work. We have, for example, this system of national discretion 
under the Wassenaar arrangement. If every country gets to do 
what it wants, that's not strict. It is a strict system 
possibly in name but it's got so many leaks in it that it 
doesn't work.
    What we need to do is apply an empirical test, is this 
working. I think empirically, it is not. That is the reason 
unanimously our Select Committee recommended we move to a 
multilateral regime. We've simply got to do that or else we're 
not going to succeed in controlling things.
    The United States acting alone probably is doing the right 
thing these days. My only point is it's not good enough.
    Mr. Dicks. I think the question on dual use technology is 
very important. I think we need to make some judgments about 
those items that clearly have dual use capability, like high 
performance computers. One of the things that troubled us is we 
thought you've got to have solid end-use verification or things 
that are purchased for commercial purposes can get turned over 
and used for military purposes. We think we have some examples 
of that. That's one concern.
    Not having the Export Administration Act in place, it 
expired in 1994 and we haven't reauthorized that, so the regime 
we have today has less penalty.
    I think there are some things we could do to improve this 
and also to make sure that the Defense Department and the State 
Department are given adequate time to evaluate some of these 
sensitive licenses. There's been a great rush to do these 
things faster and our view was take the lower dual-use items 
that are not nearly as sensitive and push them out, but the 
ones that have real serious military potential, they ought to 
be looked at longer.
    Mr. Cox. Representative Dicks reminds me of a point we made 
here earlier that caused me to add to the answer I just gave 
you. When it comes to high performance computers, knowing we 
have licensed for sale HPCs rating as high as 10,000 MTOPS, 
millions of theoretical operations per second, directly to the 
PRC, not even through Hong Kong, and knowing we have licensed 
high performance computers to end-use destinations in the PRC 
that are involved in all these military activities, and knowing 
as we do, in the Select Committee's judgment as we put it in 
here, about the application of U.S. high performance computers 
to nuclear weapons applications, I just think you have to take 
a completely different approach to that. That's why I agree so 
strongly with what Representative Dicks just said.
    Senator Cochran. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Thank you for that excellent report. Is it fair to say that 
both your Select Committee and the administration agree that: 
One, China has been targeting the lab since the late 1970's; 
two, that the Chinese have been concerned about the 
vulnerability of their nuclear forces; three, that the Chinese 
obtained nuclear weapons information for the United States 
which assisted their nuclear weapons modernization program?
    Mr. Cox. Yes, so far to all of those. I think we're in 
agreement.
    Mr. Dicks. Yes.
    Senator Akaka. Then is there any disagreement over whether 
or not the Chinese could have developed nuclear weapons without 
classified information from the United States?
    Mr. Cox. I think once you get into that area you're into 
the realm of speculation because those are what ifs. I think 
what we can agree upon is that without this information, it 
wouldn't have been so fast. At a minimum, this accelerated 
their process and I think did so significantly. Whether or not 
ultimately they might have been able to do this on their own, I 
don't know.
    We do have solid empirical evidence about how many nuclear 
tests it required of us to develop these weapons without anyone 
else's assistance. So when you take a look at the testing of 
the W-88, right off the bat with so few nuclear tests getting 
it right, that would have been impossible without the stolen 
information.
    Mr. Dicks. Again, I just want to emphasize they have gotten 
design information on the W-70 and the W-88; they have their 
own version of both of those weapons and they have tested both, 
one in 1988, the other between 1992 and 1996, but they haven't 
taken that and then deployed something. So there is still a 
question in my own mind whether they can really get this done, 
whether they've got the talent, the machinery, and the ability 
to do this.
    I agree with the Chairman, if they do, they're going to 
have used elements of those two weapon systems in this new 
weapon but they still have to be able to do it. There are 
people like John Foster, who is one of our finest experts in 
the CIA damage assessment, who raises questions about this. So 
I think we're going to have to wait and see.
    It's bad enough they got this information when they 
shouldn't have gotten it. That should never have happened but 
they still haven't been able to completely exploit it. They've 
learned a lot, it's brought their program up to a quality with 
ours in terms of design but they still have to deploy it.
    Mr. Cox. I should point out in that respect that Ambassador 
Lee on behalf of the People's Republic of China has said that 
it's a complete fabrication that they stole any of this and 
that we should not doubt the capacity of the PRC to develop 
this totally indigenously on their own.
    If it's the case that they could do it all by themselves, 
then I think we have to ask whether or not if they stole it, 
they couldn't use what they stole. Somewhere you get hoisted on 
your own petard with that argument. I happen to have a great 
deal of respect for the PRC's capacities in this area but 
without question, they didn't have what they now have until 
they stole it. All we can tell you to a certainty is that this 
accelerated their program. What might have happened otherwise 
we can only speculate.
    Senator Akaka. I saw one of your slides and I want to ask 
whether the slide suggests that the Chinese obtained critical 
information on seven separate American nuclear warheads, but 
I've only seen reports about classified information on the W-88 
and the neutron weapon. How did you reach your conclusion on 
other warhead systems?
    Mr. Cox. In fact, classified information on all of those 
weapons systems was acquired by the PRC according to sources 
that we cannot disclose in here but of course from the U.S. 
Government. The distinction that you're making is a correct 
one, however, between on the one hand, the W-88 and the W-70 
and on the other hand, the other warheads listed because as 
Representative Dicks said in his opening presentation on this 
subject, the W-88 and W-70 were design information, the others 
were technical information, classified technical information 
but not design information, the latter category being more 
sophisticated than the technical information.
    Mr. Dicks. The thing that's interesting here, the two that 
they have been able to do their version of are the two they got 
the design information on. On the rest of them, they got 
technical information but they haven't done anything with 
those.
    Senator Akaka. Your committee also concludes that the 
Chinese stole missile-related technology that improves their 
military capabilities. Is the Loral guidance system which the 
Chinese may have obtained the guidance system of preference for 
a missile?
    Mr. Cox. After Loral's Intelsat 708 launch on a Long March 
3B failed, Loral assisted the People's Republic of China in 
correcting the problems with the Long March which in the case 
of the 3B were guidance problems. The guidance system that's 
used on that Long March 3B is a candidate but not in the words 
of your question--what was it?
    Senator Akaka. Whether it was the guidance system of 
preference?
    Mr. Cox. Preference. I don't think it is the guidance 
system of preference for future ballistic missiles but it is 
one capable of being used for that purpose. So what we 
concluded is that the Loral assistance went directly to the 
reliability of the Long March rocket which is the workhorse 
military space lift rocket for the People's Liberation Army. 
It's what puts up their reconnaissance satellites and any space 
weapons they might use. The benefits for their ballistic 
missile program are indirect. Most significantly what they 
learned from Loral was diagnosis techniques but they've got a 
small, lightweight guidance system that is going to be of a 
general category useful on their future ballistic missiles. The 
system itself in the Long March 3B is not the preferred system 
is the direct answer to your question.
    Mr. Dicks. But it could be used also for shorter range as I 
remember.
    Mr. Cox. That guidance system would be directly useful in 
short range missiles.
    Mr. Dicks. Which if you're thinking about Taiwan and that 
problem, it could be very useful.
    Senator Akaka. Is it considered as having a high degree of 
reliability or was it a second, third or even fourth best 
alternative?
    Mr. Dicks. Isn't it true they were pretty reliable anyway.
    Mr. Cox. First of all, the Long March 3B, you recall, was 
the maiden voyage and it crashed on its maiden voyage. So there 
was a great deal of concern. The guidance system on the Long 
March 3B is the guidance system on the Long March 3B. There is 
no question, it's the preferred system and it's the system in 
that rocket.
    After the accident investigation, what Loral helped the PRC 
discover was what went wrong with that guidance system. It was 
the follow up frame in the guidance system which was the 
problem which they had not identified. In fact, they had ruled 
it out as a failure mode and so basically, Loral made it work. 
Now the reliability of the Long March is directly improved as a 
consequence of that.
    Senator Akaka. Do you know if the missile technology which 
the Chinese obtained from the satellite launches is at all 
usable for the modern mobile missile system which your report 
suggests the Chinese are working on?
    Mr. Cox. The DF-31?
    Senator Akaka. Yes.
    Mr. Cox. Is it at all useful?
    Senator Akaka. I'm asking if the missile technology which 
the Chinese obtained from the satellite launches is at all 
usable for the modern mobile missile system which your report 
suggests the Chinese are working?
    Mr. Cox. Yes. In addition to the guidance technology, which 
I think we just thoroughly discussed, the Hughes after-accident 
reviews focused on a different part of the rocket, the fairing, 
the covering for the satellite, which if it were used to cover 
warheads, would be called a shroud instead, same piece of the 
rocket but different technology if it's a ballistic missile as 
opposed to a rocket. Particularly if the new smaller warheads, 
which can be used for MIRVing, are in fact MIRVed, multiple 
warheads are put on top the same rocket, you'd need a shroud 
and if that configuration were used, then there would be direct 
help to the PLA for a ballistic missile as a result of that 
after-accident review.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Cochran. It's about time for a vote, so we'll stand 
in recess.
    [Recess.]
    Senator Cochran. We still have one more vote that I'm going 
to have to go back over and make but I think in the meantime, I 
will proceed to ask a few more questions. I assume another 
Senator can return and continue the hearing, if you are able to 
stay. You've been very patient and we appreciate that very 
much.
    I'm going to ask you for an assessment of what you think 
the impact is, and I know you may have already answered this. 
But I'm going to ask it again to be sure and give you a chance 
to tell us if your investigation showed what the impact of the 
PRC's acquisition of U.S. nuclear weapons design information 
has been? Do you have information on which to base a conclusion 
about the impact of the acquisition of U.S. nuclear weapons 
design technology and information?
    Mr. Cox. Yes. In fact, we cover that topic in our report, 
albeit one has to be careful and circumspect in doing so 
because this is getting us into the realm of future events. We 
can only weigh the probabilities and the nature of the 
concerns.
    Our chief concern is with regional security in the short 
and medium term. The United States has forces in Japan, in 
Korea, in the region of the Taiwan Straits and those forces 
would be directly threatened by an increased offensive 
capability of the People's Liberation Army.
    In the very long term, one can engage in conjecture about 
the relation of forces between the United States and the 
People's Republic of China but in the near term, it is the 
regional picture that we are most concerned with, the threats 
that are posed by the new DF-31 when it's deployed to Japan, to 
Korea, to India, to the Philippines, to the PRC's neighbors in 
the region. That essentially represents our conclusion on that 
point.
    Mr. Dicks. I wanted to ask, Senator, did you say you wanted 
to know what they've done with the design information?
    Senator Cochran. No, my question was what is your 
assessment of the impact of PRC's acquisition of U.S. nuclear 
weapons design information?
    Mr. Dicks. I think the Chairman gives a good answer in that 
respect because if they in fact deploy. Again, as I pointed 
out, I'm not sure you were in the room, on the W-88 and the W-
70, they've tested both of those but they haven't yet deployed 
them. So I have a question in my mind, and I think other 
experts do too, about whether they will be able to. If they do, 
then the things flow that the Chairman discussed and that's why 
we're worried about this because it would have a significant 
impact in allowing them to have mobile missiles or submarine-
launched ballistic missiles which would change the balance of 
power in the region.
    Again, I'd underline this, we still have to see. My leader 
who put me on this committee is from Missouri and he always 
says, show me. I think we have to see what they do here first 
before we can jump to the consequences of it.
    Senator Cochran. My assumption is, from what you've told us 
today and my reading of the portions of the report that I've 
been able to read, that one impact could be that they have a 
more advanced nuclear weapons capability.
    Mr. Cox. That is certainly true.
    Senator Cochran. You mentioned the submarine launch 
capability. Also in the report there is the fact that the 
warheads they can fire now are going to be smaller. So the 
implications of all these things to me are very serious. That's 
my impression.
    Mr. Dicks. Right, exactly.
    Senator Cochran. It's quite serious and they have 
implications for our own policies with respect to missile 
defense. As we know, we just passed legislation in both Houses 
saying it's our policy to deploy as soon as technologically 
possible a National Missile Defense system, but I also think we 
need to accelerate our development and deployment of more 
effective theater missile defense systems.
    Mr. Dicks. I think that's the number one priority. What 
bothers me the most is that we are having a very difficult 
time. Of course this drives PRC up the wall because they don't 
want to see Taiwan or Japan or Korea having an effective 
theater missile defense system.
    My view is when you deploy forces, you've got to be able to 
protect them. As we remember, in the Gulf War, had Saddam had 
accurate SCUDs, those 500,000 troops sitting out there would 
have been in very vulnerable shape, a very vulnerable 
condition. In fact, we lost some already even though these 
things were completely inaccurate. So the theater missile 
defense issue, I think, is of paramount concern.
    Mr. Cox. Mr. Chairman, we infer doctrine from not just the 
public statements of the People's Republic of China because 
those could be misrepresentative of their true doctrine, but 
from their capabilities. If their ICBM force, as with their 
currently deployed CSS-4 force of about 20 ICBMs is silo-based, 
if it's liquid-fueled, if the warheads are mated with the 
missile, we can infer that's a deterrent, retaliatory force. We 
can believe then that's their doctrine if that's the hardware.
    But when they change hardware, when they go to different 
weapons with different capabilities such as you mentioned--JL-2 
submarine-launched ballistic missile where the warhead will be 
mated at all times with the missile itself where they'll have 
solid fueled missiles--then particularly in the region, we can 
be less confident that this is not an offensive capacity.
    When you couple that with the resolute unwillingness of the 
Communist Party leadership, including Zhu Rongii in his recent 
visit after he left the United States, he went to Canada and 
said under no circumstances would they think about ruling out 
the use of nuclear weapons in Taiwan. So they are quite 
difficult to read on their doctrine in that case.
    Furthermore, in the region, they have a first strike 
capability because even though their CSS-4s are lumbering and 
so on, their other weapons might not be our state of the art, 
as applied to other weaker states, they are superior.
    So if the United States is looking at the situation in the 
region, we have to take heed when the PRC says we are 
absolutely opposed to missile defenses in the region. What that 
means is they want to preserve their offensive capacity. It is 
not simply defensive and retaliatory on a regional basis.
    Senator Cochran. In our transfers of missile technology, 
whether intentional, authorized or illegal, what worries me is 
that China has a record of proliferating and selling what they 
produce to other countries. There have been examples and they 
are cited in your report. You name countries and you name 
systems. I'm getting a little nervous because some of this is 
in an unclassified and some is in the classified version, so 
I'm very careful about how I ask the question.
    Mr. Cox. As you know, the list is longer, Senator, in the 
classified version.
    Senator Cochran. My point is this. What do we do in terms 
of U.S. policy implications to try to deal with that? We've got 
the missile technology control regime.
    Mr. Dicks. We've got to try to get that implemented and we 
need that on a multilateral basis. It takes presidential 
leadership, the Secretary of State, or the Secretary of 
Defense. In all conversations with the People's Republic of 
China, we've got to make this point.
    The President would argue that we've gotten them to abide 
by some of these agreements and to stop proliferating in 
certain instances. There has been some progress made, but 
again, I think this is a major issue and it has to be 
consistent and we have to make a major priority.
    Mr. Cox. The PRC has not subscribed to the most recent 
version of the MTCR, so for starters, the U.S. policy should be 
designed to get them to commit to that.
    Senator Cochran. Is there any evidence of a close 
relationship in terms of trading technology and technical 
assistance between China and North Korea and is there a 
connection between North Korea's advancement toward its 
multistage rocket capability in this relationship with the 
Communist regime in China?
    Mr. Cox. The answer to that question is yes, there is 
cooperation between the PRC and North Korea on its space launch 
program. In fact, we have a photograph of both the North Korean 
satellite and the PRC satellite on which it is apparently based 
in the report. Without PRC assistance, it is doubtful that 
North Korea could have launched that satellite atop a three-
stage missile which remember, our intelligence told us before 
it happened was not going to happen and couldn't happen.
    Senator Cochran. Congressman Dicks, you're a Ranking Member 
of the Select Committee on Intelligence in the House.
    Mr. Dicks. I was, Mr. Chairman. I've worked myself out of 
two jobs. I had 8 years of that, which ended and now with the 
publication of this report at the end of this month, this 
committee is history. So I'm going to be back on the 
Appropriations Committee sitting with you in conference.
    Senator Cochran. All right. We're looking forward to that.
    You stated that Congress was not adequately informed about 
the thefts of nuclear weapons information, though the 
administration has claimed that Congress was adequately 
briefed. Have you gotten in trouble by saying that?
    Mr. Dicks. I'll just tell you this. When I saw the chart we 
showed up here a few moments ago, when Notra Trulock presented 
it, I got the message. We didn't get that chart in the 
Intelligence Committee that I can ever recall.
    It's one thing to come up and brief the staff. It's another 
thing to come up and sit down with the Chairman and the Ranking 
Member and say we've got a problem. Frankly, I didn't feel and 
the Chairman of the Intelligence Committee, Porter Goss, didn't 
feel that we had really gotten the kind of briefing that we 
should have gotten until we were both sitting on the Select 
Committee with Chairman Cox.
    There's letting people know something and also coming up 
and saying this is under investigation, we're doing this or 
that, but nobody came up and said, we've had a wholesale loss 
of the magnitude that we described here today. That is why I 
felt, in both the House and Senate, it's impossible that both 
the House and Senate Intelligence Committees would not have 
reacted had they gotten the full drift of this thing. That is 
why I feel they have to do a better job on these important 
issues.
    The Ames case, I was on there on the Ames case and by God, 
everybody in the room knew what the implications of that were. 
All the members were there and it was explained. That's the way 
it should be done.
    Mr. Cox. Mr. Chairman, as the Chairman of the Select 
Committee, I sat as I'm sitting now before a microphone in a 
hearing room that was closed to the public and the press with 
Representative Dicks as my Ranking Member on one side and also 
the Ranking Member on the Intelligence Committee during the 
105th Congress, and Porter Goss seated at the other side as the 
Vice Chairman of the Select Committee and the Chairman of the 
Intelligence Committee then and now and I saw the look on their 
faces, I listened to the expression of emotion when we heard 
these things and our hearts were in our mouths. It was the kind 
of thing that if you'd ever heard it before, you would never 
forget. Without question, these men had not heard this before.
    Mr. Dicks. We knew there was a problem at the labs in terms 
of the capability. In fact, the Intelligence Committee 
authorized more money, and we appropriated it on the 
Appropriations Committee, in 1997, 1998 and 1999 to enhance the 
security at the labs because we had GAO reports, there were a 
number of things, but there wasn't a portrayal of this that we 
just had a completely incompetent system that had to be 
radically changed and the administration was coming up asking 
for help. That didn't really happen until Berger saw the 
briefing in the summer of 1997. Then they started moving on the 
PDD. They enhanced the money. They did that also in 1996.
    I think our committee did a lot to drive this thing home 
because once I saw how bad this was, I went immediately to 
Richardson and told him, this is completely and utterly 
unacceptable. You've got to clean this up.
    Senator Cochran. That was Bill Richardson, Secretary of 
Energy?
    Mr. Dicks. The Secretary of Energy just when he came into 
office. To his credit, he was then considering recommendations 
from Ed Curran about what had to be done. These recommendations 
were implemented in November 1998. There were still people in 
the Department of Energy who were resisting this, saying we 
don't need to do this, at least to the extent that Curran 
wanted to do it. I strongly supported Curran because I dealt 
with him when he was at the CIA.
    So to Richardson's credit, he moved out and is still moving 
out and that's why I think we need to give him bipartisan 
support, we've got to give him the legislative help, we've got 
to give him the money, to get this job done. I think he and 
Curran together are committed. I can tell you this, our Select 
Committee had a lot to do in inspiring action.
    Senator Cochran. Mr. Chairman, in 1998, the President 
certified to Congress that China, ``The PRC is not providing 
any nuclear weapon-related assistance to foreign nuclear 
weapons programs. This is a requirement of one of the statutes 
on most-favored nation trade status.'' I think that was 
attached to the legislation as I recall.
    Does your report contain any information that's contrary to 
that certification?
    Mr. Cox. We have two reports. One is classified and one is 
unclassified. Our unclassified report, to the best of my 
knowledge, does not include dates, so I can't give you a 
straight answer to that question.
    Senator Cochran. There is concern that when we did have a 
loosening of the export restrictions on supercomputers, it was 
easier for the regime in China to exploit its nuclear gains. 
Maybe I should just ask that. Did the loosening of export 
restrictions on supercomputers by the administration make it 
easier for China to exploit its gains in the nuclear weapons 
area?
    Mr. Cox. First, rather obviously, it made it easier for the 
PRC to acquire high performance computers. They didn't have any 
until the first of the year 1996 and from that point forward, 
they have acquired over 600. Second, the Select Committee 
judges that U.S. high performance computers have been used in 
nuclear weapons applications. Third, we have stated in our 
unclassified report that U.S. high performance computers have 
been sent to destinations in the People's Republic of China 
that are involved in a variety of military-related work that we 
listed earlier during our testimony. So we have very serious 
and abiding concerns in that area.
    Mr. Dicks. My staff reminds me that we may have a slightly 
different view on whether actually U.S. HPCs have been used. We 
don't sell them for that purpose; it's for commercial purposes 
only but the issue the Chairman is raising is have they taken 
one that was there for commercial purposes and it's wound up 
being somewhere else used in this regard, but there is a little 
difference of view between the two of us on that.
    Senator Cochran. One reason I asked the question on the 
relaxation of export controls was that was done in 1996.
    Mr. Dicks. Right.
    Senator Cochran. And it was in 1995 that we understand the 
administration knew or should have known that the PRC was using 
the HPCs and other things they were buying for commercial use 
to improve their nuclear weapons program.
    Mr. Dicks. I don't think we have any evidence on that that 
I know of.
    Mr. Cox. Mr. Chairman, can we ask your indulgence for just 
a moment because we're trying to sort out classified and 
unclassified information here.
    [Recess.]
    Mr. Cox. Thank you, Mr. Chairman.
    I think the side bar we just had with staff and the 
statement Mr. Dicks made about whether we're on all fours with 
what we're talking about here is because we're talking about 
two separate things.
    Mr. Dicks. I concur with the Chairman that he's right about 
what transpired there.
    Mr. Cox. We have a statement in the report that says that 
the Select Committee judges that U.S. high performance 
computers have been used for nuclear weapons applications. 
That's a statement we're comfortable with.
    Mr. Dicks. I don't think they could have used them very 
effectively at the level of MTOPS that they had in 1996.
    Mr. Cox. We can talk very freely about what that means. 
Whether or not it means, for example, that they can do three 
dimensional modeling of a W-88 while it's being detonated is 
something that we're not suggesting. The kind of computing 
power you need for that sort of thing is well beyond anything 
they've obtained from us, even though they've obtained 
relatively fast high performance computers.
    The only way they could get into sophisticated nuclear 
weapons modeling at the levels that they have obtained is if 
they have also acquired test codes either from the United 
States or from Russia.
    Senator Cochran. What becomes clear to me is that it was in 
1995 that the administration came to understand the scope of 
the espionage that the PRC was engaged in in terms of what it 
had access to, what it was getting.
    Mr. Dicks. I think in fairness, in 1995, we had the walk-in 
who came in with this document. It took a while to really try 
to reach a judgment about that. It wasn't until 1996 that the 
White House was briefed and this was in the context of a 
briefing that was about Chinese missile capability. This was 
like one or two lines in a 20-page briefing. It wasn't like 
what they received in 1997 when they had a briefing that was 
about this whole subject. It really was a grabber and I saw it 
and that's when the alarm bells went off down there.
    I guess there is a difference of opinion just about how 
forcefully this was presented in 1996. Based on what I saw, 
this would look to anybody in a senior position like an 
investigation being conducted by law enforcement, FBI, about 
two different individuals who were under investigation for 
espionage in relationship to these kinds of events.
    The 1997 briefing is when I think they started to move with 
the PDD and really trying to change things. I'm sure this will 
be disputed, Senator, for a long time and there will be all 
kinds of hearings up here. I know the Intelligence Committee is 
trying to have Mr. Berger up. I went down and took a look at 
these documents because I wanted to make a judgment for myself. 
So I think reasonable people can differ on when they really 
knew something.
    They changed what they had given us originally because his 
Deputy said they in fact had briefed the President in the 
summer of 1997 and that set of the PDD 61 effort which was 
culminated and finished in February 1998.
    Senator Cochran. I have to go vote and I'm going to turn 
the meeting over to Senator Akaka while I do that. I'll just 
close up this line of questioning and say this: It seems 
inconceivable that the knowledge gained in 1995 about the 
extent of the espionage and the information that was being 
gained by the PRC that in spite of that, it was in 1996 that 
the administration relaxes the export controls so that you do 
not have the same kind of stringent oversight from the 
Department of Defense and the Department of State on some of 
these items, that they could then be freely transferred. All 
you did was just ask the company to say they were selling for 
commercial purposes and leaving it up to them to check it out. 
That's why I think it's significant.
    Mr. Cox. That's why it's so significant that the Secretary 
of Commerce wasn't briefed, not in 1996, not in 1997, not in 
1998, neither was the Secretary of State and you've heard those 
public complaints of late. Madeleine Albright has complained 
that nobody told her.
    The State Department and the Commerce Department together 
have complete plenary responsibility for export licensing of 
militarily sensitive technology to the People's Republic of 
China and other countries. For these people not to know the 
dimensions of the problem we're talking about here and the 
hardware that we want to keep away from the PLA so they don't 
perfect what they've already stolen is a very bad thing indeed.
    Senator Cochran. Senator Akaka.
    Senator Akaka [presiding]. Thank you, Mr. Chairman and 
thank you for being so patient here with us.
    Your report states that unrestricted access to a satellite 
for as little as 2 hours could provide the PRC with valuable, 
non-public information about major satellite subsystems. My 
question is, could the Chinese obtain such information without 
tampering directly with the satellite, opening it for example?
    Mr. Cox. Yes. Non-intrusive means such as x-ray and so on 
are available so that as we state in our report, it would be 
possible if you had unfettered access to the satellite to leave 
it in such condition that no one could detect that intrusion 
had been made.
    Mr. Dicks. It was our conclusion that there probably wasn't 
an opportunity even though the security was terrible, the 
guards did a poor job, the DTSA people there, we're not 
comfortable that there was ever a time when they could have 
actually done that. They could have done what the Chairman 
said, but actually get inside and some of us were told you had 
to really get into the satellite itself to get something you 
wouldn't be able to get through Aviation Week or all these 
other magazines that are out there.
    Senator Akaka. If they had been able to open it, would the 
companies have detected such access?
    Mr. Dicks. I would hope so but again, there was some laxity 
here and the report properly says that you have to presume that 
if there was an opportunity, they would have taken it. Whether 
there was ever 2 hours when there wasn't somebody there, I 
think is doubtful.
    Senator Akaka. Is there any information that the Chinese 
did so?
    Mr. Dicks. I don't think we ever had a conclusion that they 
did so but what we worried about was the laxity in security 
gave them an opportunity to do it that should not have been 
there, again a failure of the self-policing and a failure of 
the security system.
    Mr. Cox. Let me, if I might, read you the brief portions of 
our report that our joint investigative staff prepared in 
answer to this question. ``If the PRC has only visual or 
photographic evidence''--in other words they just got from afar 
to look at the satellite briefly and that is a common violation 
of U.S. security guidelines--``then they could only obtain 
information that confirms known capabilities of the satellite 
that is available in the public domain.'' People said to us, 
that's useful information and they might be after it but you 
have to understand it's available in the public domain and it 
would confirm known capabilities of the satellite.
    ``If they had access for 2 hours, then they could gain 
valuable information that is not otherwise available in the 
public domain. The PRC could accomplish even exploitation that 
penetrated the interior of the satellite given 2 hours of time 
without leaving any traces. With this kind of exploitation, the 
PRC could gain new information about major satellite subsystems 
as well as the design and manufacture of each subsystem.
    ``Furthermore, unmonitored access to a U.S. satellite for 
more than 5 or 6 hours would be coals for Newcastle.'' It would 
be diminishing returns at that point; you wouldn't even need 
that much time but we asked the question if you had 24 hours, 
what could you learn and the answer is there's nothing you 
couldn't learn about the satellite in 24 hours.
    The important thing is that even if you had just 2 hours, 
the PRC could accomplish even exploitation that penetrated the 
interior of the satellite without leaving any traces which I 
think is directly in response to your question.
    Senator Akaka. But we don't know whether they had 2 hours?
    Mr. Cox. We have several security infractions listed that 
show that satellites were unattended and that security 
sometimes for more than 24 hours was inadequate but the whole 
point of the lapses in security is that we were not there as 
percipient witnesses, so we cannot tell you that these things 
actually occurred. We have not stated in the report that they 
did but our conclusion is that it would be unusual if the PRC 
didn't exploit these opportunities. We have to leave it at that 
but we have stated very definitively that we have not 
documented the transfer of technology as a result of these 
lapses of security. We've only estimated what could have 
happened.
    Senator Akaka. Your report mentions an ongoing PRC 
intelligence collection effort at a number of national 
laboratories including Oak Ridge. Could you comment on their 
effort in Oak Ridge and perhaps other labs not directly 
associated with our nuclear weapons program?
    Mr. Cox. We don't have anything, Senator, unclassified 
about Oak Ridge.
    Senator Akaka. You state in your report that our 
laboratories almost certainly remain penetrated by the PRC 
today. Does this mean that you concluded that even if we assume 
Wen Ho Lee is guilty of espionage that he would not be the only 
Chinese agent now in the labs?
    Mr. Cox. I think that's a very important part of what we're 
saying. This is not one person in one place. I think you can 
infer from the difficulty that we're having with that 
particular case, that is not the entire story.
    Mr. Dicks. In the intelligence world you have to kind of 
here again, assume the worse and if they've had 20 years to 
recruit people, then you have to assume that you may not have 
everybody. That's a concern that if I were running 
counterintelligence, that's why you're going to do all these 
polygraphs out there, to see how many people you've got out 
there today who have significant counterintelligence problems.
    I'm not on the Intelligence Committee anymore but I'll 
guarantee you there will be a list.
    Mr. Cox. I should add, perhaps unnecessarily, that we have 
been very, very cautious about the presentation of the ongoing 
case at Los Alamos. The name Wen Ho Lee which you have heard a 
great deal in the media for many weeks and months before the 
release of this report does not appear in our report. It 
doesn't appear even in the classified version of our report. We 
have been exceptionally careful about this. We refer to the 
case by its code name rather than referring to an individual.
    I would hope given the gravity of these charges, somebody 
who gets convicted of such an offense is typically executed or 
given life in prison, that we would be careful in the public 
handling of these cases. I don't have any doubt that if our law 
enforcement gets the goods on one of these people that they 
will be unstinting in trying to penalize them at least with the 
kind of oversight we've been giving this case.
    That doesn't mean that we need to have the Richard Jewel 
treatment for every suspect that we come up with and I would be 
very careful about that.
    Senator Akaka. If it were so, does that suggest that the 
DOE's Office of Counterintelligence may have erred or was not 
as thorough as it should have been and their analysis appears 
to have focused so closely on one individual?
    Mr. Cox. In fact, as I testified earlier, there are not 
even ongoing investigations into the thefts of the classified 
information on the other weapons because we don't have 
satisfactory leads to commence those investigations.
    Mr. Dicks. These are very difficult cases. 
Counterintelligence cases are very difficult and there are 
problems with polygraphs too. So you have to work through those 
things, so it's going to take some time out there now that they 
are going to use polygraphs to get a full perspective of what's 
happened and where the problems are.
    Mr. Cox. Senator, I need to correct the statement I just 
made which was accurate as of the date of this report but staff 
informs me that subsequent to the completion of our report in 
January, the Department of Energy has initiated an internal 
investigation on the other weapons as well.
    Senator Akaka. Your report also states that the PRC has 
stolen a specific U.S. guidance technology used on current and 
past generations of U.S. weapons systems. Could you give us 
some idea when this theft occurred? For example, was it 
recently, in the early 1990's, in the late, middle or early 
1980's?
    Mr. Cox. I think we're getting into a classified area with 
this one and we have to consult with staff to ask whether we 
can respond in open session.
    Senator Akaka. Your report mentions the importance of 
controls on computer exports. As you know, there have been and 
continue to be major advances in computer capability. This is a 
serious problem and one which we in the Congress will have to 
deal with this year. I'd like your considered opinion. If we 
are unable to get end-user verification or post-shipment 
verification for personal computer sales, should we refuse to 
sell computers capable of 7,000 MTOPS or 2,000 MTOPS that can 
be linked?
    Mr. Cox. Senator, I think your question was whether we 
should do this if we could not get end-use verification for the 
sales of personal computers. We haven't any interest in 
restricting personal computers in any way.
    Mr. Dicks. I do think we've asked for a study to be done I 
think by the Department of Defense to look at parallel 
processing, look at all these issues and take a real 
substantive look at any potential problems here. Could you put 
enough of these smaller computers together to get to a high 
enough MTOPS level to give you a very effective military 
capability? That needs to be looked at.
    I think the committees of Congress are going to have to go 
into this, bring in experts, do a lot of homework because we 
could have a red flag here saying we're concerned about this 
but I personally don't feel I have the expertise to advise you 
on what to do here. I think whoever the committee is that has 
jurisdiction has to take a very careful look at this.
    Mr. Cox. I should add that we currently have separate 
export licensing regimes for the PRC on one hand and Hong Kong 
on the other hand. It antedates the handover of Hong Kong on 
July 1, 1997 and has been kept in place without change. It 
makes no sense from a national security standpoint to sell 
faster computers to Hong Kong where there are People's 
Liberation Army troops garrisoned than you are willing to sell 
to the PRC itself.
    So from a national security standpoint, living in the real 
world as we must, we have to recognize if we're selling these 
to Hong Kong, we're selling them to the People's Liberation 
Army and yet we are burdening our companies with all the 
paperwork, all the licensing and so on and turning down sales 
to the PRC as if we were getting some national security benefit 
in return.
    Undoubtedly we're probably inconveniencing someone with a 
civilian use in the PRC but the one outfit that's getting what 
they need undoubtedly is the People's Liberation Army and the 
institutes that assist it in the manufacture and development of 
its weapons.
    I think we need to be realistic about where our national 
security controls really are and we control computers at a much 
higher level for the PLA than most people think.
    Senator Akaka. Before I turn it back to the Chairman, in 
your report talking about computers, you note that the Chinese 
are purchasing millions of low end computers. More specifically 
you state that about 4.5 million desktops, portable personal 
computers, personal computers, servers and workstations in 1998 
alone.
    Do I understand your recommendations correctly that you are 
not advocating tightening export controls on this kind of 
equipment. Indeed you recommend that the levels should be 
streamlined.
    Mr. Cox. That's precisely correct. The dollar value of U.S. 
sales and the potential size of the market for personal 
computers dwarfs anything that we're getting out of the HPC 
market. So when one takes a look at the tiny amount of dollars 
that come to the United States from these HPC sales, it just 
isn't worth the national security tradeoff.
    On the other hand, the expanding PC market is an attractive 
one that our exporters should be encouraged to tap.
    Senator Akaka. Thank you very much. Mr. Chairman.
    Senator Cochran [presiding]. Thank you.
    Mr. Chairman, in testimony before the committee, the Vice 
Chairman of Hughes Electronics testified that ``Hughes does not 
possess knowledge of launch vehicle technology to improve their 
launch vehicles''--referring to China. This statement was made 
by Steven Dorfman, who is Vice Chairman of Hughes Electronics. 
I will repeat it, ``Hughes does not possess knowledge of launch 
vehicle technology to improve China's launch vehicles.'' Do you 
agree with Mr. Dorfman's statement?
    Mr. Cox. Let me just read from the summary of our Chapter 5 
on the Hughes matter. ``In both cases''--this refers to both 
after-accident reviews after two Long March crashes--``Hughes 
disclosed information to the PRC that related to improving the 
Long March 2E fairing, a portion of the rocket that protects 
the payload during launch. Such information was outside the 
scope of the original license obtained from the State and 
Commerce Departments respectively with respect to the export 
and launch of the OPTUS B2 and APSTAR 2 satellites. Hughes 
claims that the 1993 OPTUS B2 failure analysis disclosures were 
cleared in advance by U.S. Government but neither Hughes nor 
the pertinent U.S. Government agencies retained records that 
would substantiate this claim fully. The lessons learned by the 
PRC from Hughes during the 1995 APSTAR 2 failure investigation 
are directly applicable to fairings on other rockets, including 
those used to launch PRC military satellites.''
    The point is made more elaborately in the chapter itself. 
We inquired, I believe through written interrogatories of all 
the agencies about whether the fairing is part of the rocket or 
not because the tissue of the argument that was used was that 
somehow this is part of the satellite. Every agency with remote 
responsibility conceivably to this issue, including the 
Commerce and State Departments, the CIA, everybody else that we 
asked wrote back to us unequivocally that the fairing is part 
of the rocket, and of course it is. It is essentially the 
nosecone.
    Senator Cochran. Congressman Dicks, could I ask you, do you 
expect that information provided to China's space launch 
entities was shared with its missile programs?
    Mr. Dicks. I wouldn't have any doubt about that.
    Senator Cochran. My last question is one about policy with 
respect to the PRC. There's been a lot of debate about our 
policy of engagement. This administration has talked about the 
policy of engagement. Did you come to any conclusions about 
what our policy ought to be, whether we should continue the 
present Clinton Administration policy with respect to the 
People's Republic of China or whether we should change that 
policy?
    Mr. Cox. I have personal views on that point. I think most 
members do, but our report is directed to what happened. I 
think there are many policy inferences that one can draw from 
it.
    We have made recommendations to change our export policy. 
We have made recommendations that I think indirectly suggest we 
ought to be very chary about our security relationship or any 
kind of perceived strategic partnership with the People's 
Republic of China, but inasmuch as we are chiefly concerned on 
our own counterintelligence and reforming that to protect 
against PRC espionage, inasmuch as we are concerned with the 
transfer of military technology which relates to export 
control, if you cabin that off and leave to that one side, all 
the rest of our bilateral relationship is still subject to the 
discretion of whoever is making policy.
    While they are certainly related, one to another, there is 
nothing in our report that foreordains any particular China 
policy with respect to issues like trade, human rights or what 
have you.
    Mr. Dicks. I personally think we should stay with our 
policy of engagement. In talking to most of the experts, I 
think my view is the mistakes here are our mistakes--the 
failure of the Defense Department to have good security at 
these launch sites, of the inadequacy of our 
counterintelligence programs. There are very few countries in 
the world who don't spy on the United States. So we have to be 
realistic about that.
    Having said that, I like what Jim Baker said the other 
night, we need to have a very direct, honest, open relationship 
like we dealt with the Soviets before the Soviet empire broke 
up because I think China is too important a country to ignore.
    My view is that we've got to clean up our own mess and yet 
I still think we should try to have a positive relationship 
with China because I think it's in our own interest to do that.
    Senator Cochran. I appreciate very much your being here 
today, the patience, the cooperation with our Subcommittee, the 
fact that you came here to testify in the Senate on the same 
day you testified before a House committee on the subject of 
this report. I can't help but congratulate you again for the 
outstanding job you've done.
    I think the other piece of evidence that is very compelling 
is the fact that the major dailies that have come to my 
attention today are all editorially enthusiastic about the 
quality of the work you have done and the importance of the 
work that you've done.
    I'm going to, at this point, put in the record, the New 
York Times, Washington Post, Washington Times, Wall Street 
Journal editorials of today which are very complimentary and I 
think very pertinent and ought to be a part of the permanent 
record.\1\
---------------------------------------------------------------------------
    \1\ The articles referred to appears in the Appendix on pages 82-
87.
---------------------------------------------------------------------------
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Perhaps it's some kind of trifecta, on the same day you 
have received thunderous praise from both the Senate and the 
editorial writers. Congratulations and be careful tomorrow.
    Mr. Cox. The way I count that, the Senate and the editorial 
writers, it's not a trifecta.
    Senator Lieberman. Well, count the editorial writers twice. 
I was searching for the third.
    Thanks very much. I'm sorry that the schedule has taken us 
in and out. I asked my staff if anyone asked you this question 
and to the extent that you're able to talk about it now, I'm 
intrigued with what you found about the standard method of 
operating that the PRC has with regard to espionage. We focused 
on, for instance, the case of Wen Ho Lee and suspicions around 
him, an employee of one of the labs. Of course you've 
documented for us the stunning array of sophisticated programs 
that the PRC has successful's penetrated and received 
information from but what's the standard method? Is it 
typically to compromise a U.S. employee or how does it work?
    Mr. Cox. Senator, as you alluded to, the PRC has explicitly 
adopted programs--the 863 Program, the Super 863 Program, the 
16 Character Policy which is outlined in the first chapter, 
first volume of our report--that enlisted a remarkably large 
number of scientists and other people in the collection and 
assimilation of foreign, chiefly United States, technology for 
military as well as civil purposes.
    The acquisition of that technology is accomplished through 
a number of means, only one of which is what we would consider 
to be standard spy agency espionage, the chief spy agencies in 
the PRC being the MSS, Ministry of State Security and the MID, 
the Military Intelligence Division of the People's Liberation 
Army.
    In many cases, there will be MSS involvement but not a 
direct MSS agent involved in the collection of the information 
and a decentralized collection effort is what is uniquely 
characteristic of the PRC's collection methodology. That means 
some of the large state-owned corporations that operate either 
directly or indirectly in the United States might be involved 
through their own personnel, doing their own collection. It 
means they might not be specifically directed or they might be 
specifically directed. We have seen instances in which 
decisions and reporting back occurs at very high levels of the 
PRC.
    Senator Lieberman. Even though they are decentralized, is 
there some national policy that encourages them on or is this 
sort of entrepreneurial, that a given PRC laboratory or company 
will just go out and try to grab what they can from us because 
we're the most sophisticated?
    Mr. Cox. Both. In fact the use of entrepreneurial 
collection is actually part of the overall policy. It's a labor 
intensive, manpower intensive operation that diminishes the 
amount that each person is required to collect and then 
aggregates it and puts it together in a so-called mosaic 
technique.
    Mr. Dicks. The scientific exchanges too have been very much 
used, foreign visitors for targeting purposes, inviting people 
back to the homeland and then having dinners and alcohol, some 
very kind of standard techniques, but very targeted.
    Senator Lieberman. It's hard to keep up with that kind of 
operation.
    Mr. Dicks. From our perspective, this is so unlike the way 
the Soviets operated.
    Senator Lieberman. Which was much more centralized.
    Mr. Dicks. More centralized and there were various 
techniques that they would use, a lot of money involved and 
this is a different strategy. It's much more difficult because 
you have so many more people involved to really monitor 
effectively with good counterintelligence. As you know, our 
focus in the intelligence world was the Soviet Union for so 
long and so much of our resources were aimed at them, that 
other areas of the world just never quite got the attention.
    I think what we're now finding out is we should have been 
paying a little more attention to the People's Republic of 
China, particularly as they were dealing with our labs. That's 
what is very stunning here.
    Senator Lieberman. Was the PRC carrying on similar 
espionage activities in other developed nations or were we 
uniquely targeted? After all, European nations, Japan, for 
instance, all have sophisticated technology sectors.
    Mr. Cox. I need to give you two answers to that. The first 
is that we have reported that the PRC made an election to 
pursue U.S. designs and U.S. models and of course sophisticated 
weapons like the W-88. There isn't anything like the W-88, it's 
unique and it's the most sophisticated weapon in the world, and 
isn't available anywhere else. If that's the model you're 
pursuing, you come to the United States to get it. We're quite 
confident they have selected the U.S. model rather than, for 
example, the Russian model.
    On the other hand, our Select Committee hardly exhausted 
the topic in our investigation. We had a time limit 
investigation and we stuck to our knitting. We looked at the 
transfer of U.S. technology to the PRC and if were 
authoritatively to attempt to say today we can tell you they 
did or didn't do this with France, Germany or what have you, we 
would be way out of bounds.
    Mr. Dicks. One thing we did see though was the Russians 
were giving them tremendous amounts of very advanced 
technology, military systems, etc. Some people at the Pentagon 
compared, leaving the nuclear stuff out, that dramatically more 
important technology is coming from Russia, which is another 
foreign policy challenge for us. How do we get with the 
Russians on this subject to try to do less of that?
    Mr. Cox. That, of course, is not espionage and what makes 
it even more troubling is that it seems to be consensual on the 
part of the Russians and yet I've talked to many people in the 
Russian government and legislators in Russia who find this 
profoundly contrary to the Russian national interest.
    Mr. Dicks. Sure.
    Mr. Cox. And so the fact that it's going on one must assume 
is a function of the exchange of a lot of money and probably a 
lot of people taking it on the side. Be that as it may, it's 
happening.
    Senator Lieberman. Let me ask you one or two quick 
questions about Hughes and Loral. You've alleged that they 
knowingly did not obtain the licenses they should have had in 
the cases you've cited.
    This may seem like a question with an obvious answer and 
perhaps you've answered it, but to what extent were you able to 
reach conclusions about what their motivations were? In other 
words, one might not seek a license because you think you're 
not going to get it or you're too lazy to go through the 
process, maybe you think you would get it but it's going to 
take too much time so you want to go ahead with getting your 
satellite launched, etc.
    What kind of conclusions did each of you reach about the 
motivations here?
    Mr. Cox. We actually in the very well documented chapters 
on Hughes and Loral have laid it out there for the world to 
see. You can take a look at the motivations in the words of the 
employees of these corporations themselves. They pretty much 
put on the record why it is they did what they did. They were 
concerned about their business relationships with the PRC, they 
were concerned about getting space insurance, and we have a 
significant amount devoted to that.
    Senator Lieberman. Tell me what you mean about their 
business relationship with the PRC? They thought if they 
applied for the license, it would take too long?
    Mr. Cox. The PRC is not only a launch services provider in 
this case, they are also a customer for the satellites. The 
satellite companies are trying to sell their wares to the PRC. 
There are some memoranda and some back and forth correspondence 
and conversations that make it very clear that future deals 
were connected to the conduct of these launch investigations. 
In fact, in one ironic way, Hughes, trying to fix the Long 
March rocket so that it worked to satisfied the space insurers, 
actually brought them into potential conflict in a business way 
with China Great Wall Industry which didn't want to be told, at 
least nominally--maybe this was a very skillful negotiating 
tactic on their part to make sure they got the Hughes help--but 
according to at least the face of the memoranda, they didn't 
want to be told how to fix their rockets and Hughes wanted to 
tell them how to fix their rockets because they didn't want 
them to crash anymore.
    Senator Lieberman. Do you have anything you want to add, 
Congressman?
    Mr. Dicks. No, I basically concur with that. This was a 
very sober judgment. These are two outstanding companies that I 
have a high regard for but it was our opinion, looking at all 
the evidence, that they knew they should have gotten these 
licenses and just didn't do it. I think it was because they 
wanted to engage the Chinese and knew that they would be turned 
down.
    Senator Lieberman. Again, perhaps a question with an 
obvious answer but they knew they should have received the 
licenses; do you think it's reasonable to conclude or do you 
conclude that they also knew, notwithstanding that legal 
obligation, that going ahead without the license would 
compromise our national security in some way?
    Mr. Cox. There are some memoranda that indicate not only 
did the corporate people know that if they asked the State 
Department for a license, they would be turned down, but they 
knew and put it on a piece of paper that they knew the reason 
they would be turned down was because of the possibility of 
aiding the PRC's ballistic missile program.
    Senator Lieberman. Thanks again, if I can once more praise 
you. Here's the trifecta. If I caught the TV correctly last 
night, President Clinton also praised you, so you have the 
Washington Post, the editorial writers, the Senate and the 
President.
    Mr. Cox. The Holy Trinity so to speak.
    Senator Lieberman. Thanks a lot.
    Mr. Dicks. If we could just get the House leadership.
    [Laughter.]
    Senator Cochran. Senator Thompson.
    Senator Thompson. Thank you very much.
    How long, if you know, have the Russians been supplying 
nuclear capabilities to China?
    Mr. Cox. Actually, we have been rather circumspect in our 
statement about that specific. In our unclassified report, we 
have talked about PRC-Russian cooperation, we have talked about 
our concerns that this is going on in the military area, and we 
have to leave it at that.
    Senator Thompson. All right. We do know that Russia is also 
proliferating to some of these Third World countries, so we 
have the Russians supplying the Chinese, the Chinese supplying 
Third World countries, Russia supplying Third World countries. 
We have a real pretty picture developing around the world.
    I don't know which one of you made the comment to begin 
with, and maybe it was Senator Lieberman, about the theater 
threat. I've heard it said a hundred times that we have so many 
nuclear weapons and they have just a handful, that we have 
thousands, which is certainly relevant but totally misses the 
point.
    If they pose a threat to our allies in the region, it's 
almost as much as if they posed a direct threat to us.
    Mr. Cox. We have troops in the region for support.
    Senator Thompson. Of course. We have people in the region 
there and a direct attack on our allies would be almost like a 
direct attack on us and would involve us probably just as 
readily. Milosevic doesn't have any nuclear capability either 
as far as I know but he sure is affecting this Nation's policy.
    In order to determine what foreign nations are doing and to 
protect our national security, it seems to me that we at least 
need to know what our country and our government is doing. I 
was concerned to read in your appendix, which I find one of the 
more interesting sections of what you've done here, the Justice 
Department objections.
    Apparently the Justice Department was the only U.S. 
Governmental entity that you dealt with that rendered 
objections and failed to cooperate fully. Can you discuss that? 
It's on page 212 of the third volume. Can you discuss that even 
to the point, as I understand it, that they discouraged you 
from talking to some of the same witnesses.
    Obviously you have 6(e) grand jury material issues that are 
relevant and you have agencies that apparently don't want to 
cooperate because the Justice Department has encouraged them 
not to. The implication I get is that they don't want to give 
you copies of what the Justice Department has asked of them, 
they don't want to give you copies of what they've given to the 
Justice Department, although clearly it has no 6(e) 
implications.
    Taking the cake for me was this business of discouraging 
you, apparently, from talking to witnesses they had talked to 
because of the old ongoing criminal investigation exception 
that we all know and love so well. It is used at the drop of a 
hat in order to keep Congress from finding out what they're 
doing.
    Who were you dealing with, what were the instances and to 
what extent did that pose a difficulty for you in trying to 
carry out your job?
    Mr. Cox. We dealt directly with the Attorney General on 
this as well as the senior leadership at the Department of 
Justice. Our joint staff, who were conducting this 
investigation, not the Democratic or Republican staff but the 
joint staff under the leadership of Rick Cinnquegrana, who has 
worked both at the Department of Justice as an advisor to the 
Attorney General and at the CIA where presently he is the 
Deputy Inspector General, and Dan Silver, who in the Carter 
Administration was the General Counsel at the CIA and the 
General Counsel of the NSA, were very concerned that the 
Justice Department was essentially getting in the way of our 
investigation.
    We were created as a Select Committee with a time limit. We 
had less than 6 months to do the entire investigation and I'm 
sure you're familiar with the time limit imposed.
    Senator Thompson. This committee is familiar with the time 
limit.
    Mr. Cox. We were created by the unanimous or nearly 
unanimous vote of the House of Representatives to do a serious 
national security look at some very specific questions. These 
were serious questions and it turned out they were more serious 
than even we thought at the time but we took the job very 
seriously.
    So we were very concerned that the Department of Justice, 
for the first part of our investigation, took the view that 
they could interpose themselves between us and all the other 
parts of the Executive Branch. If we sent a document request to 
an executive department, they would say the executive 
department couldn't respond to the committee's request even if 
it were a subpoena because they needed first to get in the 
middle of it and look at it and see whether any of it was the 
same as had gone to the grand jury. That's absurd.
    Senator Thompson. I find that outrageous.
    Mr. Cox. We stopped that, we worked it out with them and 
they stopped doing that.
    Second, and of greater concern, is that if you're trying to 
solve a problem for the country and you're trying to look at 
this as a national security matter, then you want to get to the 
bottom of these things in a hurry, you don't want to drag it 
out.
    Senator Thompson. Especially if it's an ongoing problem.
    Mr. Cox. The Justice Department had been out and done a lot 
of this work and talked to witnesses and if only they could 
have told us, for example, what might be an investigative blind 
alley, they could have saved us a lot of time, don't look 
there, there's nothing there. They took the view that they 
couldn't do that.
    I suggested, and this is why I met with the Attorney 
General, and why we met on several occasions with the senior 
leadership of the Department of Justice and the U.S. Attorney 
here in the District of Columbia, we wanted to go into court 
and ask the judge, go in together, the Congress and the Justice 
Department, for a ruling under 6(e) that we could look at some 
of that material.
    We could obviously convince the court we were to keep it 
secret, we had a scif, we had a compartment that was tighter 
than the grand jury compartment dealing with classified 
material.
    Senator Thompson. You were being given the most sensitive 
secrets this country has from other departments?
    Mr. Cox. That's correct.
    Senator Thompson. So you would assume that perhaps this 
would not be an unreasonable request.
    Mr. Cox. I took the view that if we went in together, the 
judge probably would be sympathetic but that if a judge turned 
us down, I would be satisfied with that. I wanted to do it all 
within the law but we didn't have the opportunity to make that 
cooperative request because the Justice Department said no.
    Senator Thompson. They would not agree to go with you to 
the judge to ask for access to 6(e) material?
    Mr. Cox. No, but we had the opportunity or I should say the 
authority under the resolution that created us to go into court 
on our own behalf but litigating against our own Justice 
Department would have taken us a lot longer than the 6 months 
we had, so we decided to give up on that.
    An analogous problem, which is of greater concern because 
that was a problem for our investigation but this is a problem 
for the country, sort of permanently on an ongoing basis, is 
that the Justice Department likewise guards that turf just as 
jealously vis-a-vis the rest of the Executive Branch.
    I worked in the Executive Branch, I worked in the White 
House and I know how reticent the Executive Branch is to share 
any material with the Hill but sharing it within the Executive 
Branch is just absolutely essential if it's national security 
information that should go to the CIA Director, at least it 
should go to the FBI Director, it should go, I think, to the 
Secretary of State and to the Secretary of Commerce if they are 
licensing foreign technology and there is this information that 
they don't know about.
    Looking at these things exclusively as law enforcement 
matters and not recognizing the big, enormous national security 
component does great injury to this country because if we know 
anything about law enforcement, it takes forever.
    Senator Thompson. Let me make sure I understand. How were 
they interposing themselves with all these other agencies?
    Mr. Cox. They instructed them not to respond.
    Senator Thompson. They instructed agencies of the U.S. 
Government--give me an example of an agency.
    Mr. Cox. We would send a request to the Department of 
Commerce and then the Department of Commerce would be told not 
to respond to us until the Justice Department looked through 
what they were going to provide.
    Mr. Dicks. But we did finally get that worked out.
    Mr. Cox. We got that fixed but that was their position. 
What it states in here, and this was written by the joint staff 
who felt very strongly about this, it slowed down our 
investigation.
    Mr. Dicks. Frankly, I think we got very good cooperation 
overall and the Justice Department was the one area where we 
had some difficulty.
    Mr. Cox. That's correct.
    Senator Thompson. This is very important because it comes 
up time and time again and it's becoming more and more focused 
now. We ran into it in our campaign finance investigation, 
where they said because of an ongoing criminal investigation, 
they can't tell us about that. The law clearly recognizes a 
legitimate interest of the Executive Branch to prosecute cases. 
We recognize that interest. The law also recognizes a 
congressional right, duty and responsibility to inform the 
public and to legislate, especially in this particular area. 
Clearly under the law, it is Congress that has to do the 
balancing.
    I remember Sam Ervin and Archibald Cox got into this 
disagreement in the very beginning. Cox was saying don't 
disrupt our investigation. Uncle Sam was talking about the 
peoples' right to know and clearly the Congress has a right to 
hopefully not be irresponsible but to do that balancing and 
weigh those interests in order to inform the people about how 
their government is operating.
    Now, for the first time, we're seeing it happen with regard 
to the most important, sensitive, dangerous matter posed to our 
country that is ongoing. So we're seeing it now being used 
where the actual national security is involved. You have the 
Justice Department not just saying we don't want to tell you 
all these things because it's an ongoing criminal 
investigation, which is outrageous enough under these 
circumstances, but also interposing themselves, which I did not 
realize, I don't think I even ran into that.
    You have a section in here about John Huang and you point 
out all of his activities, all of the things we went into when 
we were here and all of his access to classified information, 
all the calls to Lippo while he was on the public payroll, all 
the trips across the way, Lippo being partners with an outfit 
that in turn was hooked with an outfit that did some of the 
Hughes launches or getting ready to.
    I take it you didn't know anything about what was going on 
between Justice and John Huang, is that correct?
    Mr. Cox. That's exactly right.
    Senator Thompson. Now, the day that your report is 
released, they release a statement announcing that they have 
cut a deal with John Huang for probation and that he is now 
going to have to suffer the stigma of having pled guilty to an 
offense that happened back before he even came to Washington 
when our record is replete with his helping organized the Hsi 
Lai Temple event and lots of other things. So this is 
apparently the kind of interest the Justice Department was 
protecting. They didn't want you to mess up the John Huang 
probation deal. That's the level of the kind of stuff they are 
protecting. Charlie Trie, same thing as far as that's 
concerned. I think that is just one example. I cannot 
understand that but I assure you that we will attempt to 
understand that in our Committee and working with you.
     You also point out in the Appendix the fact that you had a 
time limit, the fact that with regard to privileges that are 
raised, all the things that posed a problem, and here you are 
going on the line for your work product at the end of the day 
and being stymied.
    Mr. Cox. Senator, I should tell you we had negotiations 
with the attorney for John Huang and he offered us the same 
deal that apparently he just got from the Justice Department. 
We turned it down. We could have had his testimony in return 
for a grant of immunity along those lines and we didn't extend 
it so that we could preserve the Justice Department right to 
prosecute.
    Senator Thompson. We could have granted him immunity too as 
far as that's concerned. I guess it was over the Justice 
Department's objections of course. Did you talk to Justice 
about the possibility of doing that?
    Mr. Cox. No, we did not, so they did not object because we 
didn't ask them.
    Senator Thompson. See, that's the fix we're all in. None of 
us want to mess up an important prosecution, especially if 
there is a possibility that the person is going to cooperate. 
In this prosecution deal, he says he's supposed to cooperate. 
Well that's as good as the person enforcing the agreement from 
the government's side. So that is the dilemma that we have and 
we're not getting any cooperation from the Justice Department 
as to what the real deal is. So out of an abundance of caution, 
we say we don't want to mess up any important prosecution that 
in this case resulted in a probation deal and some public 
service for a 1992 violation and you deprived yourself, as we 
deprived ourselves in this Committee, of the possibility of 
gaining some information that might have helped you with regard 
to a matter of national security. We've got to do, as a 
government, a lot better than that.
    I'll ask one more question in one more similarly related 
area. We have had hearings and Senator Cochran certainly has 
taken the lead in this on the transfer of responsibility, 
regarding munitions list matters, I believe in 1996, from the 
State Department to the Commerce Department and there has been 
a lot of discussion about that. We're supposed to have a 
mechanism in place in which concerned departments can appeal. I 
think I might have been out of the room and you expressed some 
concern about the efficacy of that system.
    I noticed in your report that you had a couple of people--
you didn't name their names--from DTSA who expressed grave 
concerns that, essentially, that review process to them was a 
sham. I look and see that apparently you were trying to get 
their testimony and others at DTSA which was, to me, the heart 
of the process in which everyone is supposed to blow the 
whistle if we're about to give technology we shouldn't give and 
the Department of Defense would not cooperate with you on that. 
Can you explain what happened there?
    Mr. Cox. Our joint staff, our majority staff and our 
minority staff were all unhappy with that result. As a result, 
we wrote it up in the appendix which you discovered.
    We had live testimony that suggested there were serious 
problems at DTSA, that it was a mismanaged agency. This is the 
Defense Technology Security Administration within the 
Department of Defense, that there were a lot of unhappy people 
and so on.
    There was some question among the members whether this was 
representative of what really was going on at DTSA or whether 
these were a couple of disgruntled, unrepresentative people. So 
one of our members suggested that we get a chance to talk to 
others at DTSA and it was then given to us that would be 
disruptive. So we offered to distribute a questionnaire and 
just have them send back some answers confidentially to us and 
that I believe was rejected.
    So we were just told basically, again, we're a time-limited 
committee and we had some substantial powers but our option is 
to start to hold people in contempt and ask the U.S. Attorney 
to initiate is not realistic, so basically they closed that 
door for us very effectively and we didn't get a chance to do 
oversight in that area. We can't report anything more to you 
than we've said in this unclassified version.
    Senator Thompson. Thank you very much. I think this just 
gives some insight. Of all the important things you were able 
to do, there are still in my mind some very important things 
you were kept from doing and we need to figure out how to do a 
better job of that.
    Finally, absent that problem, were you able to make an 
assessment with regard to how the system, the export control 
system is operating in terms of giving the defense side of 
things, for example, time enough to register their objections 
and appeal? My recollection is that these are very short time 
periods for appeal and that sort of thing. Maybe there had 
never been an appeal that made it all the way to the top, even 
though you had all this disgruntlement at the bottom. Were you 
able to make much of an assessment about that without DTSA's 
cooperation or Defense's cooperation?
    Mr. Cox. We concluded after looking at a lot of things, of 
which that would only be one part, that it is important, 
particularly on the most sensitive military technology that you 
have the considered views of the national security community 
and the intelligence community and we have recommended that 
occur.
    Under the current situation as it has been reconfigured of 
late, as you know, the Commerce Department is essentially in 
the driver seat and has a disproportionate weight in their 
views.
    Mr. Dicks. We were concerned about making certain there 
wasn't real pressure put on them to do a cursory job of 
reviewing these licenses. We thought some of the time lines 
were getting to be a little bit questionable and that both 
Defense and State on these very high level, highly important, 
dual use technologies, their views had to be brought into this.
    Of course you know the House initiated the return of the 
satellite launches to the State Department. So I think this is 
a very sensitive area and one that we have to be very careful 
about.
    Senator Thompson. Thank you very much.
    Senator Cochran. Senator Levin.
    Senator Levin. In fact, that was accomplished last year, is 
that correct?
    Mr. Dicks. It was.
    Senator Levin. One of the issues that Chairman Thompson has 
raised is the information we don't get that we ask for and the 
various reasons given for not getting that information and that 
is an important issue. There is another issue about information 
we do get and do nothing about. I'm intrigued by the list of 
General Accounting Office reports on DOE security issues that 
have just flowed into this Congress for 2 decades.
    Mr. Dicks. We had a lot of letters read today that Chairman 
Dingell had sent to various Secretaries of Energy throughout 
the 1980's on this very subject which I think the reason this 
was read was to remind people that this has gone on for 20 
years and somebody had better at least now pay attention. We do 
have their attention now.
    Senator Levin. One issue has been going on for 20 years, 
but my point is a little different. For 20 years, Congress has 
been informed by the GAO that there have been problems, 20 
years. You go back starting in 1980, August, with a GAO report, 
``Safeguards and security at DOE's weapon facilities are still 
not adequate.'' They are still not adequate in August 1998.\1\
---------------------------------------------------------------------------
    \1\ The list Senator Levin refers to appears in the Appendix on 
page 88.
---------------------------------------------------------------------------
    Mr. Dicks. That's because they had a major failure late in 
the 1970's with the lands.
    Senator Levin. Then next, this is 1986: ``Nuclear 
proliferation: DOE has insufficient control over nuclear 
technology exports.'' One of the lines is DOE is releasing 
technology without security.
    Then in March 1987, ``Nuclear Security: DOE's 
reinvestigation of employees has not been timely.'' Here's a 
quotation: ``In summary, we found that DOE Headquarters and 
some field offices have been unable to meet DOE goals to 
reinvestigate security clearances. DOE offices have almost 
76,000 employees who have not been investigated within the last 
5 years.'' This goes on and on and on for 20 years we get GAO 
reports.
    Has there been an assessment as to where Congress maybe 
fell down on the job here, too, in terms of forcing corrections 
of issues. Is that part of your review?
    Mr. Cox. Of course the General Accounting Office is the 
investigative arm of the Congress, so Congress can at least 
take credit for consistently highlighting these problems.
    Senator Levin. But don't we have an obligation to do more 
than highlight problems? Don't we have an obligation to force 
changes in problems if they keep going on?
    Mr. Cox. I think what we have described in our report is 
that there have been repeated, apparent efforts made so that 
there would be a response to this Congress banging on the door. 
At our Hershey retreat, I had a chance to learn from John 
Dingell his long interest in this issue.
    I worked in the White House when John Dingell was doing 
oversight and I think you need to infer something from the fact 
that even John Dingell oversight couldn't fix this problem, 
that it's a very resistant strain.
    We can infer properly, correctly that throughout several 
administrations, from the birth of the Department of Energy in 
the late 1970's to the present day, DOE has resisted efforts to 
fix an obvious and identified problem until something horrible 
happened. It's a little bit like driving down the freeway with 
one finger on the wheel, a can of beer, no seatbelt and as long 
as nothing happens, people can warn you that is dangerous but 
unless you hit a pylon at 60 miles a hour, you don't quite get 
the message. Now that's happened and we all agree that it's 
horrible that we didn't do something.
    I think in addition to inferring that Democrats and 
Republicans were negligent in responding to obvious warning 
signals, we need to infer something else, that maybe there is 
something endemic about the institution we set up, the 
Department of Energy, these problems being coextensive with the 
entire life of DOE.
    The Atomic Energy Commission had responsibility for these 
things prior to the creation of DOE. That was sort of a grab 
bag Cabinet agency into which a lot of things were stuffed. 
It's conflicting missions I think are part of the reason we 
have had a lack of attention on something this important 
because DOE is not just a national security agency.
    Mr. Dicks. I would answer your question this way. I think 
yes, Congress does have a responsibility here. I think the 
Armed Services Committee in the House and the Senate, the 
Intelligence Committee, the Operations Committee, the Commerce 
Committee, you can name them and we've all had responsibilities 
here. On the Intelligence Committee, we increased the funding 
for 3 years but we didn't get the job done.
    I think it's not only a failure of the Department of 
Energy, it's a failure up here too. I take part of the blame 
myself.
    Senator Levin. Congressman Dicks, yesterday you made 
reference to the report as being cast in the worst case 
fashion. Could you tell us what you meant by that?
    Mr. Dicks. What I meant to say is that we took these 
conclusions, we took facts and we argued about the facts and 
then we drew conclusions. Some of these conclusions assume the 
worse possible thing is going to happen. Therefore, people have 
expressed some concerns about this. I think it was the 
creativity of the staff and the principal author, which is the 
Chairman, that we were able to lay all these things out.
    I would argue that not all these things are necessarily 
going to happen. Again I mentioned that when you were not here, 
the fact that we still don't know whether they are going to 
deploy the weapons they have stolen. We think they probably 
will but they haven't done it yet.
    So in reading this report, you have to look at this thing 
carefully and then you have to make a judgment. We don't know, 
as the Chairman says, the future, so we make some predictions, 
we make some judgments that only the future will tell us. I 
think it's important in a report like this to have balance. Our 
side tried to add balance on a few issues to make certain that 
the American people were not going to be completely frightened 
by this thing--as the Senator has said about us having 
overwhelming military superiority over the Chinese--but the 
issue is, as the Chairman points out, and I agree, this is the 
concern about them exploiting the secrets that they have stolen 
is in the regional context and not as much against the United 
States itself because we do have overwhelming strategic nuclear 
superiority, a very credible deterrent and the prospect, when 
technologically feasible, of a defense.
    Mr. Cox. I think I need to add to that because I disagree 
with it and there was disagreement expressed at our news 
conference on that very point. As soon as Congressman Spratt 
mentioned he thought there was a worse case analysis with 
respect to a particular item, Congressman Bereuter then said, I 
don't think it's the worse case at all, and rebutted it on the 
spot.
    What you're seeing, therefore, is that this report 
represents a middle ground. Somebody might think it's a worse 
case, somebody might think it isn't the worse case at all. I 
can tell you in 30 seconds why it's not the worse case. All 
we've done is document actual thefts in here, but we don't 
know, because our intelligence is anything but perfect, how 
many thefts have actually occurred. We could surmise about the 
fact this is just the tip of an iceberg, which we haven't done; 
we have only laid out the facts and made inferences from things 
we actually know and consider how we know some of this stuff.
    We know it because of a walk-in, just gratuitous and 
fortuitous for us I think, a presentation of information 
without which our own intelligence would never have detected 
this, although the W-88, we would have known about the testing. 
If you remember, that provoked an argument and the Intelligence 
Committee didn't agree about those inferences from the testing.
    I think if you want to draw a worst case analysis, you 
don't come up with this report, you come up with one that says 
this is what we know, imagine what we don't know. So we wrote 
this report, the Democrats and Republicans together, meeting in 
the middle as you must in order to get a unanimous vote and we 
have different assessments of our own report but we can all 
stand by it and we all voted for it.
    I should also point out the obvious which is----
    Mr. Dicks. Enthusiastically.
    Mr. Cox. Which is in the Senate, that any member can 
provide additional views, not just any views but additional 
views when you vote for it. We presented this report without a 
single sentence of additional or dissenting views and we voted 
for it unanimously. So you get a little bit of what goes on 
inside a committee to produce that result but I think we're 
enthusiastic, as the Ranking Member just said, about what we 
produced for you.
    Senator Levin. I don't know who is controlling the slides 
but could you put on the slide prior to that one about the 
People's Republic of China.
    I'm a little confused by this. It says ``The People's 
Republic of China has stolen design information on the United 
States' most advanced thermonuclear weapon.'' Then it says, 
``The stolen information includes classified information on 
seven U.S. thermonuclear warheads, including every currently 
deployed thermonuclear warhead in the U.S. ballistic missile 
arsenal.''
    That suggests that design information was stolen on seven 
U.S. thermonuclear warheads.
    Mr. Cox. No, that's not what it says. It says ``The stolen 
information includes classified information on seven U.S. 
thermonuclear weapons.'' The next bullet says, ``The stolen 
information also includes classified design information for an 
enhanced radiation weapon and in addition to that, there's 
classified and design information about the W-88.'' So those 
are the weapons referred to.
    Mr. Dicks. And those are the two that they----
    Senator Levin. I understand but my question is, if you look 
at the way it's laid out, it says, ``The PRC has stolen design 
information''--that's the first paragraph, right?
    Mr. Cox. Yes.
    Senator Levin. And then it says ``The stolen information,'' 
which I think inadvertently is referring back to the prior 
paragraph but I don't think you really intend that. Is that 
correct? Do you see what I'm saying?
    Mr. Cox. The definite article ``the'' as opposed to----
    Senator Levin. No, I just want to be real clear here. We 
don't believe or know that there was stolen design information 
on seven U.S. thermonuclear warheads?
    Mr. Dicks. No, quite the contrary. I shouldn't say that. We 
don't know what we don't know, to quote the Rumsfeld Commission 
but we know to a certain degree what is in our report and our 
report says there is design information on the W-70, the W-88 
and classified information about five other weapons.
    Senator Levin. Is it fair to say that the classified 
information about five other weapons is not as compromising or 
as dangerous to us as stolen design information?
    Mr. Cox. It's less detailed, that's correct.
    Senator Levin. So it would be less threatening or 
dangerous?
    Mr. Cox. The more detailed information the PLA gets, the 
more concerned we are, so the level of concern about the W-88 
and the W-70 is higher.
    Senator Levin. It's higher when it's design information.
    Mr. Dicks. In fact, we think it's more usable.
    Mr. Cox. As Representative Dicks points out, the 
information on the W-88 and W-70 was so extensive that it 
permitted them successfully to test these weapons. Particularly 
with the W-88, that is a remarkable thing.
    Senator Levin. The other clarification is at the beginning 
of the report, page VI, where it says, ``The stolen U.S. 
nuclear secrets give the PRC design information on 
thermonuclear weapons on a par with our own.'' I'm not clear on 
that. Do we believe that they have design information on a par 
with our design information?
    Mr. Cox. Yes. Congressman Spratt raised that yesterday. 
That statement was some of what we considered at the time we 
wrote the report spilling over to today, what we had at one 
time talked about was what they've gotten that is on a par with 
our own, what capability and so on.
    We changed the sentence at Chairman Spratt's request. 
Almost everyone on our Select Committee is a chairman and 
Congressman Spratt used to be the chairman. So now all it says 
is that the PRC has design information on a par with our own 
that is literally a tautology. They have our design 
information. Of course it's on a par with our own, it's our 
design information.
    It doesn't say they have nuclear weapons on a par with 
ours. It says design information on a par with ours.
    Senator Levin. Or that they have nuclear weapons design 
information that's a totality on a par with our own. You're not 
suggesting that?
    Mr. Cox. No, we're not saying that either.
    Senator Levin. What you are saying is that whatever they 
stole of our design information gives them the same design 
information in that specific way that we have, is that correct?
    Mr. Cox. You're getting now into the spirit of the way we 
discussed just about every sentence that is in here.
    Senator Levin. I just want to know if that's correct.
    Mr. Cox. That is correct.
    Senator Levin. So if they had this 6 pages of design 
information that they stole, that 6 pages would be the same 6 
pages we have?
    Mr. Cox. It's a little less acute than that. They have 
design information on a par with our own with respect to the 
weapons that we described here. They successfully tested them 
and they got the design information, in other words, they 
needed to pull it off.
    Senator Levin. But that is not an overall judgment as to 
their design information on nuclear weapons as a whole then?
    Mr. Cox. No. We do feel comfortable, however, stating it in 
that way because the one they did get design information on is 
our most sophisticated weapon, for starters, and second, the 
neutron bomb is a weapon that if they were to deploy, they'd 
have something we don't have because we never have deployed 
that weapon.
    Mr. Dicks. I think Congressman Spratt's concern here was 
that with all of the testing that we have done, with all of the 
weapons we have deployed, he feels we have superior design 
information than they do.
    Mr. Cox. Frankly, he's right.
    Mr. Dicks. He is right, we don't dispute that, but the way 
this is written is limited to what was stolen.
    Senator Levin. That's helpful. Last question.
    On the comprehensive test ban treaty, let me start with 
Congressman Dicks on this since he and I have spoken about this 
before. Would you agree it's in our national interest if China 
does not conduct any more nuclear weapons tests and thus 
presumably cannot as readily make improvements that would rely 
on nuclear testing?
    Mr. Dicks. Do you mean for us to ratify the comprehensive 
test ban treaty?
    Senator Levin. Would you agree it's in our national 
interest?
    Mr. Dicks. Yes.
    Senator Levin. Congressman Cox.
    Mr. Cox. I think it's apples and oranges. It's possible 
that it might be but there is a different reason at work in our 
consideration of that restraint than the PRC's. We already have 
this significant arsenal that you just described and our 
reasons for testing involve not insignificantly, safety 
reasons. If you think it's legitimate for us to possess that 
arsenal, then we need to test for that reason.
    The PRC we're trying to prevent from acquiring that arsenal 
and so the restraint in their case is designed to prevent the 
expansion of the nuclear powers to include the PRC at a level 
with the United States.
    Senator Levin. Would you agree preventing them from testing 
would, in essence, prevent them from acquiring these weapons in 
the first place?
    Mr. Cox. We've already got the weapons and preventing us 
from testing means that we live unsafely with our own nuclear 
arsenal that we've already deployed.
    Senator Levin. Is it in our interest then, just on the 
apples question, that China did not test nuclear weapons?
    Mr. Cox. The PRC, yes, if that's the line of your question, 
that's an easy question. We agree with the answer to that, yes.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Cochran. Any other questions? Senator Akaka.
    Senator Akaka. I just want to pick up on a question that 
was asked earlier.
    Mr. Dicks. Mr. Chairman, may I interrupt?
    Senator Cochran. Yes.
    Mr. Dicks. Chairman Cox has a birthday party with one of 
his children and he's a half hour late.
    Senator Levin. In that case, I withdraw all the questions I 
previously asked so you can get out of here 20 minutes ago.
    Mr. Cox. I'll tell you, national security is very important 
but Katie's fifth birthday party is a really big deal.
    Senator Akaka. If you'll permit me, Mr. Chairman, I'll make 
this very short. The question I asked was whether your report 
states that PRC has stolen and I said a specific U.S. guidance 
technology which is used on current and past generations of 
U.S. weapons systems. The question I asked and I didn't get an 
answer from you was, when did this theft occur, recently, early 
1990's, the late, middle or early 1980's.
    My question now is that specific U.S. guidance technology 
which is widely available and produced in significant 
quantities commercially and used in systems other than 
missiles, is that used in commercial aviation?
    Mr. Cox. Yes.
    Mr. Dicks. Yes, Boeing airplanes.
    Senator Akaka. Thank you for your answer.
    Senator Cochran. Thank you, Senator.
    Thank you very much, Chairman Cox, Congressman Dicks.
    The hearing is adjourned.
    [Whereupon, at 6:35 p.m., the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T9590.001

[GRAPHIC] [TIFF OMITTED] T9590.002

[GRAPHIC] [TIFF OMITTED] T9590.003

[GRAPHIC] [TIFF OMITTED] T9590.004

[GRAPHIC] [TIFF OMITTED] T9590.005

[GRAPHIC] [TIFF OMITTED] T9590.006

[GRAPHIC] [TIFF OMITTED] T9590.007

[GRAPHIC] [TIFF OMITTED] T9590.008

[GRAPHIC] [TIFF OMITTED] T9590.009

[GRAPHIC] [TIFF OMITTED] T9590.010

[GRAPHIC] [TIFF OMITTED] T9590.011

[GRAPHIC] [TIFF OMITTED] T9590.012

[GRAPHIC] [TIFF OMITTED] T9590.013

[GRAPHIC] [TIFF OMITTED] T9590.014

[GRAPHIC] [TIFF OMITTED] T9590.015

[GRAPHIC] [TIFF OMITTED] T9590.016

[GRAPHIC] [TIFF OMITTED] T9590.017

[GRAPHIC] [TIFF OMITTED] T9590.018

[GRAPHIC] [TIFF OMITTED] T9590.019

[GRAPHIC] [TIFF OMITTED] T9590.020

[GRAPHIC] [TIFF OMITTED] T9590.021

[GRAPHIC] [TIFF OMITTED] T9590.022

[GRAPHIC] [TIFF OMITTED] T9590.023

[GRAPHIC] [TIFF OMITTED] T9590.024

[GRAPHIC] [TIFF OMITTED] T9590.025

[GRAPHIC] [TIFF OMITTED] T9590.026

[GRAPHIC] [TIFF OMITTED] T9590.027

[GRAPHIC] [TIFF OMITTED] T9590.028

[GRAPHIC] [TIFF OMITTED] T9590.029

[GRAPHIC] [TIFF OMITTED] T9590.030

[GRAPHIC] [TIFF OMITTED] T9590.031

[GRAPHIC] [TIFF OMITTED] T9590.032

[GRAPHIC] [TIFF OMITTED] T9590.033

[GRAPHIC] [TIFF OMITTED] T9590.034

[GRAPHIC] [TIFF OMITTED] T9590.035

[GRAPHIC] [TIFF OMITTED] T9590.036

[GRAPHIC] [TIFF OMITTED] T9590.037

[GRAPHIC] [TIFF OMITTED] T9590.038

[GRAPHIC] [TIFF OMITTED] T9590.039

                                   <ALL>

</pre></body></html>
